<html>
<title> - [H.A.S.C. No. 112-89]INSTITUTIONALIZING IRREGULAR WARFARE CAPABILITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-89]


 
           INSTITUTIONALIZING IRREGULAR WARFARE CAPABILITIES

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 3, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
71-528                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>  
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHLEEN C. HOCHUL, New York
DUNCAN HUNTER, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Jeff Cullen, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, November 3, 2011, Institutionalizing Irregular Warfare 
  Capabilities...................................................     1

Appendix:

Thursday, November 3, 2011.......................................    39
                              ----------                              

                       THURSDAY, NOVEMBER 3, 2011
           INSTITUTIONALIZING IRREGULAR WARFARE CAPABILITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Bayer, MG Peter C., USA, Director of Strategy, Plans and Policy, 
  U.S. Army......................................................     3
Harris, RDML Sinclair M., USN, Director, Navy Irregular Warfare 
  Office, U.S. Navy..............................................     4
Martinez, Brig Gen Jerry P., USAF, Director for Joint 
  Integration, Directorate of Operational Capability 
  Requirements, U.S. Air Force...................................     6
O'Donohue, BGen Daniel J., USMC, Director, Capabilities 
  Development Directorate, U.S. Marine Corps.....................     5

                                APPENDIX

Prepared Statements:

    Bayer, MG Peter C............................................    45
    Harris, RDML Sinclair M......................................    58
    Langevin, Hon. James R.......................................    44
    Martinez, Brig Gen Jerry P...................................    75
    O'Donohue, BGen Daniel J.....................................    67
    Thornberry, Hon. Mac.........................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    93
    Mr. Shuster..................................................    93

Questions Submitted by Members Post Hearing:

    Mr. Miller...................................................    97
    Mr. Schilling................................................   100
           INSTITUTIONALIZING IRREGULAR WARFARE CAPABILITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                        Washington, DC, Thursday, November 3, 2011.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. We will call the hearing to order. Let me 
welcome our witnesses and guests. You all please have a seat.
    We appreciate everybody being here for this hearing on a 
topic that I think will play a significant role in the security 
of the country moving ahead. It seems to me the basic question 
is to what extent we learn from our experience and build on it, 
and to what extent we assume that the past was just an 
aberration and now we can, quote, ``get back to normal.'' I am 
not sure that the conventional wisdom about normal is quite 
right.
    Dr. Sebastian Gorka and David Kilcullen found that of the 
464 conflicts since 1815 recorded in the Correlates of War 
database, 385 of them involved a nonstate actor. That is 83 
percent. Dr. Bernard Fall's research, cited in the ``2006 
Marine Corps and SOCOM Multiservice Concept for Irregular 
Warfare,'' found there were 48 small wars in the first 65 years 
of the 20th century, which, taken together, involved as many 
people and as many casualties as either of the two World Wars. 
A review of U.S. military activities over the last 20 years in 
places like Somalia, Bosnia, Kosovo, Colombia, the Philippines, 
Afghanistan, Iraq, Yemen, Libya, Uganda confirms this trend.
    The tight defense budgets ahead of us means strategic 
choices must be made. The United States must, in my view, 
maintain a full spectrum of capability. But the odds are that 
we are going to be involved in some form of irregular warfare 
in the future, just as we always have been in the past. We have 
learned or relearned much about it in the last decade at a 
tremendous cost of blood and treasure. It would be incredibly 
shortsighted of us not to ensure that those lessons are taught, 
and ingrained, and applied going forward. That is the reason 
for this hearing today, and it is the reason for our continued 
monitoring of this issue in the days ahead.
    Let me turn to the ranking member Mr. Langevin for any 
comments he would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 43.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman, and I would 
like to welcome our witnesses here today. Gentlemen, thank you 
for appearing before us and for your service to the Nation.
    We shouldn't let the term ``irregular warfare'' confuse us. 
It is not an obscure challenge understood and practiced by a 
few specialists; rather it is becoming the norm for our 
country. If the military history of the last two or three 
decades tells us nothing else, it teaches us that when the 
United States finds ourselves in a conflict, it is irregular 
more often than not. In fact, although we prepared for a war 
with the Soviet Union, in truth our forces have rarely met a 
similarly arrayed enemy, and we have, as in the case of the 
opening second war with Iraq, we saw that conflict quickly 
evolve into an irregular war.
    We have learned, or rather relearned, the hard way that 
these conflicts are not just for Special Operations Forces, but 
really require the entire General Purpose Force working jointly 
with the interagency if we are to be successful.
    Now, with this in mind, I look forward to learning from our 
witnesses today how much their respective services and the 
Department of Defense policy have really taken to heart the 
lessons of the recent past. Are you prepared to deter and 
defeat future conventional threats? Have you also incorporated 
the need to train, man, and equip for irregular warfare across 
our force, and across your force, to the same extent?
    Many of the capabilities required for traditional warfare 
are critical parts of an irregular campaign. Ultimately the 
trick is having service members who are mentally agile, 
flexible, and innovative enough to recognize when the character 
of conflict changes and move seamlessly and successfully 
between the two types of conflict. This will be a challenge as 
we grow our force to meet future conventional and 
unconventional threats. I am looking forward to hearing how we 
are doing in that regard.
    I would like to ask each of you for an example of the 
capability that is critical for success in irregular warfare, 
but not particularly useful in traditional conflict. Next I am 
interested to hear how well we are integrating irregular 
warfare efforts with our NATO [North Atlantic Treaty 
Organization] allies, particularly with regard to Special 
Operations Forces, in counterterrorism efforts.
    With that, Mr. Chairman, I thank you for holding this 
hearing and look forward to hearing from our witnesses. I yield 
back.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 44.]
    Mr. Thornberry. I thank the gentleman.
    I am pleased to welcome our witnesses here today. Without 
objection, your complete written statement will be made part of 
the record.
    And let me introduce now Major General Peter Bayer, 
Director of Strategy, Plans, and Policy for the U.S. Army; Rear 
Admiral Sinclair M. Harris, Director, Navy Irregular Warfare 
Office, U.S. Navy; Brigadier General Daniel O'Donohue, 
Director, Capabilities Development Directorate, U.S. Marine 
Corps; and Brigadier General Jerry P. Martinez, Director for 
Joint Integration, Directorate of Operational Capability 
Requirements, U.S. Air Force.
    Again, thank you all for being here. And as I said, your 
statement will be made part of the record, but we would 
appreciate any comments you would like to make or summarizing 
of it first.
    General Bayer.

  STATEMENT OF MG PETER C. BAYER, USA, DIRECTOR OF STRATEGY, 
                  PLANS AND POLICY, U.S. ARMY

    General Bayer. Chairman Thornberry, and Ranking Member 
Langevin, and distinguished members of the committee, on behalf 
of our Secretary, the Honorable John McHugh; and our Chief of 
Staff, General Ray Odierno; and the more than 1 million 
soldiers in uniform, thank you for the opportunity to be here 
before you today.
    As you know, in 2002, our Nation went to war with two 
armies, one comprised of conventional forces. It was prepared 
to prevail against traditional adversaries in direct combat. 
And the second, composed largely of Special Operation Forces, 
was prepared to excel in an irregular environment. Our Army 
quickly learned that success in Afghanistan, Iraq, and the 
other battlefields of this decade required adaptation of both 
General Purpose and Special Operations Forces, and that they 
must work together as part of the joint force and the 
interagency team.
    In the past decade the Army has captured that adaptation by 
institutionalizing irregular warfare across the entire force, 
and today irregular warfare is part of the Army's DNA. We have 
trained our soldiers and leaders, adjusted our doctrine, 
adapted formations, and developed world-class education and 
training centers which integrate irregular warfare 
capabilities. Even more importantly, our soldiers successfully 
employ the skills critical to victory in irregular warfare 
every day in combat. Irregular warfare mission set is at the 
very heart and core of Army expertise, the ability to operate 
decisively, delivering precise and discriminate lethal, and 
nonlethal effects among the people.
    However, our work is not done. The Army continues to learn 
from current operations, develop capabilities, train leaders, 
and adapt doctrine as we look forward to secure the gains from 
the last decade. As we look to the future, our Army will seek 
to ensure that a smaller force remains fully capable of 
decisive operations in all domains against hybrid threats.
    We believe the future operational environment demands 
irregular warfare competency. To do this, we must optimize the 
balance between soldier, structure, readiness, and 
modernization, and continue to focus on the professional 
military education of our leaders and soldiers. Through 
competent, adaptive, versatile, and creative leaders in 
formation, the Army ensures its ability to continue to be the 
strength of the Nation, America's force of decisive action.
    With the continued support of the American people and 
Congress, our Army will remain the world's preeminent land 
power. Again, on behalf of the Army and our leadership, thanks 
for the opportunity to be here today, and I welcome your 
questions.
    [The prepared statement of General Bayer can be found in 
the Appendix on page 45.]
    Mr. Thornberry. Thank you.
    Admiral.

   STATEMENT OF RDML SINCLAIR M. HARRIS, USN, DIRECTOR, NAVY 
              IRREGULAR WARFARE OFFICE, U.S. NAVY

    Admiral Harris. Good morning, sir.
    Chairman Thornberry, Congressman Langevin and other 
distinguished Members, it is an honor for me to be here with 
you today to update you on the Navy's efforts to 
institutionalize irregular warfare.
    The Navy's efforts are vital to our national security as 
part of a comprehensive approach to address complex security 
challenges. Our Sailing Directions, recently authored by CNO 
[Chief of Naval Operations] Greenert, emphasize that our 
mission is to deter aggression, and, if deterrence fails, to 
win our Nation's wars. Today the Navy is engaged around the 
world conducting preventative actions and activities to 
stabilize, strengthen, and secure our partners are providing 
reasonable deterrence against state and nonstate actors.
    The Navy at the same time continues to fight and win our 
Nation's wars in concert with United States Marine Corps, Air 
Force, Coast Guard, and Army. We expect the demand for the Navy 
to increase in the future security environment as combatant 
commanders seek offshore options as a part of joint solutions.
    The Navy and the Marine Corps and Coast Guard continue to 
use our maritime strategy to guide us in our efforts to secure 
the maritime domain and encourage global partnerships. Again, 
our Sailing Directions coupled with our enduring maritime 
strategy underscore the Navy's focus on multimission platforms 
and highly trained sailors conducting activities across the 
full spectrum of operations in and from the sea. And our 
forward presence allows us to better understand and respond to 
the underlying causes and conditions of regional instability, 
while actively evolving our proficiency to prevent and counter 
irregular threats.
    As part of our efforts to institutionalize irregular 
warfare competency and capacity, the Navy's ``Vision for 
Confronting Irregular Challenges'' was released in January of 
2010. It provided focus for the Navy on mission areas of 
irregular warfare as well as maritime activities to prevent, 
limit, and interdict irregular threats and their influence on 
regional stability.
    Navy efforts to institutionalize and provide proficiency in 
confronting irregular challenges are in accordance with the 
``DOD Directive 3000.7.'' Navy's irregular warfare missions 
include counterterrorism, counterinsurgency, unconventional 
warfare, foreign internal defense, security force assistance 
and stability operations, and maritime security operations. 
These are underpinned by the need for a backbone of information 
dominance.
    To meet the demands in a mission consistent with the 
maritime strategy, the Navy has leveraged the whole of the 
fleet to meet irregular challenges. Navy intelligence and 
strike capabilities support counterterrorism and 
counterinsurgency operations. Additionally, Navy Expeditionary 
Combat Command, maritime partnership stations, maritime 
headquarters, and operation centers provide unique skills that 
directly address irregular challenges.
    There are many examples of how the Navy meets global 
operational commitments and responds to crises as they emerge. 
Overseas contingency operations continue while 11- to 12,000 
Active and Reserve sailors serving are preparing to deploy in 
order to support ground operations around the globe. Navy 
carrier strike groups provide up to 30 percent of the close air 
support for troops on the ground in Afghanistan. Navy/Marine 
Corps pilots fly almost 60 percent of the electronic attack 
missions. And as our national interests expand or extend beyond 
Iraq and Afghanistan, so do the operations of the Navy.
    The Navy will meet uncertain global challenges as a forward 
force, ready, present, and persistent in areas critical to our 
national interests. To do this, we must ensure our Navy remains 
the finest, best trained, and most ready in the world to 
confront irregular challenges while retaining the ability to 
face more capable adversaries.
    The Navy looks forward to working with Congress to address 
our future challenges. I thank you for your support of our 
Navy, and I look forward to answering your questions.
    [The prepared statement of Admiral Harris can be found in 
the Appendix on page 58.]
    Mr. Thornberry. Thank you.
    General.

    STATEMENT OF BGEN DANIEL J. O'DONOHUE, USMC, DIRECTOR, 
    CAPABILITIES DEVELOPMENT DIRECTORATE, U.S. MARINE CORPS

    General O'Donohue. Chairman Thornberry, Ranking Member 
Langevin and distinguished members of the subcommittee, it is 
an honor to appear before you today. On behalf of the Marines 
and their families, thank you for your support.
    The Marine Corps is the Nation's expeditionary force in 
readiness. As such, we are a fully deployed, scalable, crisis 
response force ready to meet the complex irregular challenges 
of the future. Irregular warfare is deeply interwoven into our 
past, present, and future. It is in our DNA.
    We continue to learn, innovate, and adapt in the course of 
our main effort operations in Afghanistan. At the same time, we 
are in-stride building a post-OEF [Operation Enduring Freedom] 
force. That force is designed not for protracted 
counterinsurgency, but rather for targeted forward engagement, 
crisis response, counterterrorism, counterproliferation, 
security force assistance, and stability operations in support 
of our allies.
    We have prepared for irregular warfare with a premium on 
readiness; rapid adaptation; precise application of all aspects 
of national power; strategic, operational, and tactical 
mobility; and an integrated capability with Special Operations, 
joint, interagency, and allied partners.
    It was 10 years ago today under circumstances no one could 
predict that 2 Marine expeditionary units of 4,400 marines and 
6 amphibious ships were assembling to strike Al Qaeda after the 
horrific acts of 9/11. This task force on short notice rapidly 
concentrated from wildly dispersed forward engagement missions 
to decisively attack across hundreds of miles from the Arabian 
Sea, to Kandahar, and then on to Kabul. Using the flexibility 
at sea base, they could attack at a time and place of their 
choosing, were self-sustaining, and required no forward basing 
or supporting infrastructure, and they had only a minimal 
footprint ashore. Notably, with no time for special preparation 
and in an underdeveloped theater, Task Force 58 conducted a 
full range of irregular operations against Al Qaeda and in 
support of the Northern Alliance. These operations were 
completely integrated with SOF [Special Operations Forces], 
interagency, and our allies.
    This dynamic ability at a moment's notice to shape, deter, 
and defeat and deny our enemies sanctuary is emblematic of the 
irregular warfare capabilities that we continue to improve on 
in our current and future force. We build on 113 irregular 
warfare operations since 1990 to include, most recently, 
humanitarian assistance operations in Japan, Pakistan, and 
Haiti; counterpiracy operations in the Arabian Sea; and 
operations in Libya. We provide insurance against the 
unexpected with an adaptive, multicapable force that has a 
global reach to defend American citizens, commerce and our 
vital national interests.
    As with Task Force 58 10 years ago, we are ready today to 
respond to all manner of crises and contingencies to include 
especially irregular warfare.
    I thank you for the opportunity to testify.
    [The prepared statement of General O'Donohue can be found 
in the Appendix on page 67.]
    Mr. Thornberry. Thank you.
    General.

  STATEMENT OF BRIG GEN JERRY P. MARTINEZ, USAF, DIRECTOR FOR 
   JOINT INTEGRATION, DIRECTORATE OF OPERATIONAL CAPABILITY 
                  REQUIREMENTS, U.S. AIR FORCE

    General Martinez. Chairman Thornberry, Ranking Member 
Langevin and distinguished members of the subcommittee, thank 
you for the opportunity to discuss irregular warfare with you 
today.
    Winning today's fight with our joint and coalition team is 
a top priority. As almost 40,000 deployed airmen can attest, 
the Air Force is engaged in irregular operations supporting 
combatant commander objectives worldwide. I could not be more 
proud of the work our airmen are doing. They are trained and 
dedicated professionals.
    The Air Force has capitalized on the lessons learned over 
the last 10 years and incorporated them into policy, doctrine, 
operating concepts, and educational programs. These elements 
are continuously updated with the most current concepts, 
tactics, techniques, and procedures, thus empowering our airmen 
who are agile and adaptable, and who are ready to succeed in 
today's diverse environments.
    The Air Force has not only taken action in training and 
education, we also continue to make adjustments in how we 
project air power in our intelligence, surveillance, and 
reconnaissance, as well as mobility, personnel recovery, 
information operations, command and control, armed overwatch, 
close air support, and aviation security force assistance. In 
doing so, we have created an adaptable culture and airmen with 
an understanding of irregular warfare, using the tools at hand 
to overcome the challenges we face.
    We expect irregular warfare to remain relevant for some 
time. We are prepared to meet those future challenges.
    Thank you very much for your time and for your continued 
support of our Air Force and our Nation's military.
    [The prepared statement of General Martinez can be found in 
the Appendix on page 75.]
    Mr. Thornberry. I believe you all have given the briefest 
opening statements I have ever seen in my time here, but that 
is all right because I think this is a topic that demands a 
conversation, and so I appreciate the opportunity to have one.
    Let me just briefly begin with kind of a background 
question. General Bayer, you had a statement in your opening 
statement, and you repeated it here today, that caught my 
attention, that the Nation effectively went to war with two 
armies in 2002: General Purpose Forces that were prepared to 
excel against traditional adversaries in direct combat, and 
Special Operations Forces that were prepared to prevail in an 
irregular environment.
    Looking back, before 2002, would you agree that our Nation 
has a history of not ingraining the lessons of irregular 
warfare in our military education, and training, and so forth?
    General Bayer. Mr. Chairman, you ask a great question, and 
I think the answer is yes, we tend to focus on the war we just 
fought as we look to the future. And I think one of the things 
that is different about now for the U.S. Army after a decade at 
war is that we recognize, as we look forward, war among the 
people is the future, and as you look across our doctrinal kind 
of construct, as we look to the future, our ``Army Capstone 
Concept'' into our recently published ``Army Doctrinal 
Publication 3.0, Unified Land Operations,'' we describe the 
enemy of the future as a hybrid enemy that will have regular, 
irregular, criminal, and terrorist components of it; that will 
operate in manners that we can't always describe. And what it 
demands is a force who has competence in this irregular warfare 
skill set ranging from counterterrorism all the way over to 
stability ops.
    As one of the first soldiers in Baghdad on the conventional 
side of the house, I was the operations officer for the 3rd 
Infantry Division, I will tell you that we planned two separate 
operations to get to Baghdad. There was a conventional force 
plan and a Special Operations Force plan. I had limited 
knowledge of what they were doing, and when we both arrived in 
Baghdad to begin to coordinate, we had a lot of great people, 
but we were not prepared to operate together amongst the 
people. I don't believe that is the case now, sir.
    Mr. Thornberry. Let me ask, does anybody disagree with 
that, that in our history we have not really--I hate this word 
``institutionalized,'' but institutionalized the lessons of 
irregular warfare? And does anybody disagree with the 
proposition that we are going to have a lot more of this sort 
of stuff in the future?
    I will get to you in a minute. But none of our witnesses?
    Okay. I think it is important to kind of just lay some 
groundwork to see we don't have a very good track history of 
this, and yet it is likely to be much of what we do in the 
future.
    I will be anxiously awaiting Mr. Gibson's questions in just 
a minute. But right now I yield to the ranking member, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, and again thank the 
panel for their testimony here today.
    I would like to go back to my question in my opening 
statement. I would like each of you to give an example of a 
capability that is critical for success in irregular warfare, 
but not particularly useful in traditional conflict.
    General Bayer. Sir, I will start. I think for the Army that 
is a really tough question, because the core of our expertise 
and what we have learned most importantly in the last decade, 
it is about our soldiers. So if you look specifically at how we 
have prepared soldiers to operate effectively in the irregular 
warfare spectrum, it is about increased language capabilities, 
it is about increased culture capability, and it is about 
equipping them with the tools that can be utilized to deliver, 
you know, precise effects among the people. Sometimes those 
effects are on the counterterrorism side of the house, where we 
need to go kill somebody, and we need to kill select people, 
not innocents. And sometimes those effects are operating 
amongst the population and utilizing biometrics to be able to 
identify friend from foe, so to speak, over a period of time so 
that we are precise in our application.
    And then ranging all the way over to stability effects, 
arming them with the capabilities, such as civil affairs, 
military information support operations, lawyers who are 
trained in rule of law, so we can enable them to build capacity 
in both their security forces and their governance.
    So for us I think it is about the soldier, sir, which is 
applicable in both, and it is the skill sets we give that 
soldier for operations in irregular warfare.
    Mr. Thornberry. Thank you.
    Admiral.
    Admiral Harris. Yes, sir. I have to agree with my Army 
partner here that it is very hard to find the dividing line 
where a technology or a training or a capability is only used 
in a conventional campaign vice used in the irregular, because, 
quite frankly, there is a very gray area in war. War is war, 
and you have to flex between the two, it seems like, seamlessly 
from one day to the next.
    Some of the sensors that we were working towards in support 
of SOF operations that we will put on unmanned platforms are 
targeting individuals vice things, and those tend to be more 
toward the IW [irregular warfare] spectrum than the 
conventional, so in terms of that as one example, the sensors 
that we will put on unmanned platforms that look for cell phone 
or other type of communication devices to target specific 
individuals.
    In terms of integration with SOF, the Navy for a number of 
years now has done something called Agile Quest, which prepares 
our deploying ships and their crews to operate in support of 
SOF operations. But we have been doing more integration between 
the Navy Expeditionary Combat Command and SOF, to try to 
relieve the stress on Special Forces so they can go off and do 
those high-profile missions.
    So, again, it is a full spectrum of activity. The equipment 
has to be multimissioned because from one day to the next, 
maybe even inside the same day, we will be operating on both 
sides of the spectrum.
    Mr. Thornberry. Thank you, Admiral.
    General.
    General O'Donohue. Sir, just to pick up the theme, and to 
get back to the chairman's question, ever since Desert Storm we 
have been developing irregular warfare capability. We saw 
future warfare as not being the son of Desert Storm, but as 
being the stepchild of Chechnya. And this was the concept of 
the ``three block war'' that Marines have to operate both in 
establishing peace, in outright conflict, or in humanitarian 
assistance, all within the same conflict.
    So our lessons since Desert Storm have really led us to 
more one of emphasis rather than distinction. And so as we look 
at a capability as purely IW, really not in the way that we are 
thinking. This idea of hybrid threat, the idea that even a 
state power would be able to use an irregular tactic against a 
conventional force is not one that we see any explicit 
distinction.
    So the force to prepare has to look at the full range, it 
has to be able to operate, and if there is any definition about 
irregular warfare, it is the aspect of it is without pattern; 
that we have an adaptive enemy, the population will always be 
relevant, and what we need to do is push down the ability of 
combined arms, lethal, nonlethal, all the elements of state 
power, so we can establish not just perhaps the 10-minute 
firefight or the 1-hour firefight, but the fundamental 
conditions that led to the conflict that started it.
    So, again, irregular warfare is inextricably linked with 
the force structure, and especially the one we have recast to 
the future with the 186-8 [186,800] force is fundamentally 
different than pre-OEF, it is one of emphasis, though, not 
really one of distinction.
    Mr. Thornberry. General.
    General Martinez. Sir, one of the areas that I think is 
definitely with irregular warfare that we never used in 
conventional wars was our new Air Advisor program that we have 
implemented in the Air Force. Throughout my years growing up in 
the Air Force, we were taught simply to go out and destroy an 
enemy's air force. That was our job: to go defeat the enemy, 
not to build an air force. And as we started getting into 
irregular warfare operations, especially in Iraq and 
Afghanistan, you clearly see the need that those foreign 
countries, they need a developed air platform, they need a 
developed capability to help ensure stability in their region. 
And in order to do that, we have done several things in the Air 
Force to promote that.
    First, we established Air Expeditionary Wings in both 
countries, where we put advisors over there to help the locals 
learn about air power. And those areas are not just strictly 
skills of flying an airplane; it is everything from security of 
an airport, to the logistics, to the maintenance, and the many 
other facets that go with air power. Right now in Afghanistan 
we have 515 of those advisors helping over there.
    In addition, we changed our organizational structure and 
developed two Mobility Advising Squadrons. We have a squadron 
on each coast, and within those squadrons we have a lot of 
different skill sets, some of which I just discussed. And their 
role is now at a moment's notice to go somewhere and help 
whoever is in need of building a better air platform, again to 
provide stability in their region. In the past we didn't do 
this. We recognized it was a need in this irregular warfare, 
and we made the changes in our Air Force.
    Mr. Langevin. I thank you all for your insights. My time 
has expired. Hopefully we will get to a second round, and I 
will have additional questions. But with that, thank you for 
your input here today, and I will yield back.
    Mr. Thornberry. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, I have got a specific question for the Marines 
and a broader question.
    General O'Donohue, can you give us some insight as to what 
the utility of amphibious operations will be? The Marine Corps 
excels at that in irregular war. You mentioned a little bit of 
that in your opening statement, but the broader post-landing 
kind of thing that the Marine Corps has traditionally looked as 
being the premier force.
    General O'Donohue. The most stressing condition could be an 
imposed landing. The most common one is not. So day to day 
marines are doing operations related to regular, most often 
with Navy/Marine team, from a platform that gives us strategic 
mobility. We can move, in the case of Libya, before the 
National Decision Authority has decided what they want to do, 
but we can provide--without an incursion ashore--provide an 
offshore presence that serves as a deterrence and gives options 
and decisions base for our national decision makers.
    It allows us to put in TAC [tactical air control] combat 
power ashore, and not just against traditional targets, but 
irregular. If you had to scale against a terrorist network, you 
had to go after counterproliferation targets of high priority, 
the Marine Corps has the ability, the command and control, the 
sustainment from an amphibious platform to be able to do that. 
And in many areas we complement SOF day-to-day with their 
specialized missions, but there are ones again that we are the 
supported commander, as was the case in Task Force 58.
    So, again, it is the ability of sustainment from sea, it is 
that strategic projection, to pick a time and place of your 
choosing, to enter the environment, and to do so in the case of 
a strike or raid without a destabilizing presence. You can 
moderate the amount of force that would go in. You don't have 
to seize a port or airfield or a base for your own sustainment. 
You can really target how much you want to reinforce an ally or 
how much you want to affect the conditions in a very measured 
way from that platform.
    Mr. Conaway. Thank you.
    The broader question is, just by way of kind of fleshing 
out the question in terms of challenges to making this happen, 
I have recently watched some village stability operations in 
Afghanistan, northern Afghanistan, in which a Special Forces A 
Team matched up with a--General Purpose Forces are conducting 
those operations led by the A Team and the Special Forces. It 
seems to be working well.
    One of the issues is, can you get to scale across the 
country with the concept? You don't have enough A Teams to make 
that happen, so how do you blend and bring in a technique that 
is generated out of the A Team background broadly across? So 
what are the challenges to blending the conventional forces and 
the irregular warfare concepts on the fly to make things happen 
that we want to? Anybody can pitch in on that.
    General Bayer. Congressman, I will jump in. I think the 
first is doctrine. And we believe our doctrine generally as we 
have advanced it has described the requirement for Special 
Operation Forces and General Purpose Forces to work together.
    Clearly the village stability operations being practiced in 
Afghanistan right now are at the front edge of kind of new 
concepts. So the challenges, we bring that back. You are 
limited right now by, you know, the density of forces that are 
forward deployed and the other missions in their ability to do 
it.
    But I think the longer-term challenge for us is how do we 
integrate that in training? And in our training centers we are 
moving to what we call full-spectrum kind of scenarios that 
portray this hybrid threat and require a unit commander at the 
brigade level to deal with a multitude of problem sets, so to 
speak, during their training. So I think our challenge is, how 
do we have both Special Operations Forces and General Purpose 
Forces [GPF] present in that training rotation and work 
together prior to employment? And we have some work to do to 
ensure that. Part of it is density of their utilization for 
operational missions and how many folks are left behind in the 
training.
    Mr. Conaway. Has the Joint Forces Command that stood down, 
has that impacted your ability to do those kinds of things?
    General Bayer. From an Army perspective, no, sir. That has 
not impacted our ability to do the things I described.
    Mr. Conaway. Anybody else?
    General Martinez. Sir, from an Air Force perspective, it 
has been minimal impact. The Joint Staff has absorbed most of 
those duties, actually, the J7, handling doctrine, training and 
irregular warfare aspects; as well the J8, who currently does 
the joint requirements. So we have seen really no impact at 
all.
    Mr. Conaway. I yield back. Thank you, Mr. Chairman.
    General O'Donohue. Sir, just on your first question on the 
integration of SOF, Marine is inextricably linked. One 
characteristic of the force we project for the future was a 
growth of Marine MARSOC [Marine Special Operations Command], 
about a little over 3,000 to 3,500 Marines that give us 
obviously an organic connection with SOC [Special Operations 
Command]. We operate with them every day.
    We started with the first conceptual doctrinal piece was a 
multiservice concept for irregular warfare, which was a 
companion piece with the Marines and SOF. And then the 
complementary capability of the highly trained small units that 
operate in that battlefield using the unique capabilities and 
authorities that SOF has in combination with the Marine high 
training is one that is operating today in Afghanistan, afloat 
as we go with the MEUs [Marine Expeditionary Units], and we 
will continue in the future.
    Admiral Harris. Sir, I could add one more example for both 
of the questions you had. The first was utility of amphibious 
forces, and being an amphib officer for the past 10 years, I 
have had a firsthand chance to work with the Marine Corps/Navy 
team doing this.
    And one example I would use is that on the same day that we 
were doing humanitarian assistance in Pakistan during the 
floods in 2010, delivering water and delivering food, we also 
had the takedown of the Magellan Star in the middle of the Gulf 
of Aden, again leading the Marine Corps team, operating from 
amphibious ships, working with the general force, had a cruiser 
in support, doing IW-type mission.
    At the same time the USS Peleliu was flying missions in 
support of ground troops doing counterinsurgency in 
Afghanistan. One arc, one Navy-Marine Corps team that shows you 
on one day, and this was not an uncommon day, how valuable 
amphibious forces are.
    In terms of the integration with SOF and GPF, I mentioned 
Agile Quest, which is trained out of Fleet Forces Command, are 
doing to a greater extent. What we do in the Navy is before we 
continuously train and modify the training depending on the COM 
and the fleet commander demand signals as they go forward, to 
make sure that our sailors are prepared to operate not just in 
a conventional way, but operate also with Special Operation 
Forces. Maersk Alabama is a good example where on the fly we 
are able to seamlessly integrate.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you to all 
of you for your service and your leadership.
    I wanted to turn to the issue of language and cultural 
training, and as you may know, the GAO [Government 
Accountability Office] stated recently that both the Army and 
the Marine Corps should--must better document the results of 
their language and culture training programs to make them more 
effective. And basically what they were saying is they need to 
better leverage language and cultural knowledge and the skills 
so they can make better individual assignments assessing 
operational needs as well.
    Could you speak to that? Do you think that there is enough 
emphasis that has been placed on pre-deployment training to 
your General Purpose Forces on language training, regional and 
cultural expertise? How do you meld those in terms of IW and 
conventional forces?
    General Bayer. I will be happy to start. The answer is we 
in the Army, we still have work to do. One of our lessons 
learned is, to enable soldiers to effectively operate in the 
environments we have the last decade, which are center mass of 
the IW spectrum, we have to have increased cultural and 
language capability. So we have initiated a number of programs 
to do it.
    One of the limiting factors for our units that are employed 
in the counterinsurgency fights in Iraq and Afghanistan quite 
honestly has been the pace. When you are gone a year and you 
are home a year, to try to create the kind of language capacity 
we are talking about in the general purpose formations is quite 
challenging, to get them to what we would refer to as kind of a 
1/1 level of proficiency, conversational. So we have utilized a 
number of training aids, some shorter courses, done things like 
our 09 Lima, bringing in foreign nationals into the force to be 
interpreters assigned--in Army uniform assigned with the 
forces.
    As we look forward, we are institutionalizing a program we 
call a Regionally Aligned Brigade, and it is the utilization of 
a brigade, a general purpose brigade, aligned to a combatant 
command and a U.S. Army service component command to go do 
Phase Zero prevent-type activities, so security force 
assistance, pre-conflict to shape the environment. And one of 
the programs we have lined up is to give an increased amount of 
cultural capability and language capability to that formation 
pre-deployment. But we also recognize it is only feasible to do 
that if you have a longer preparatory time, as I stated.
    So we think the GAO report, it is not untrue in terms of 
there is work to do, but we believe we have grown substantially 
and recognize the importance of it.
    General O'Donohue. We stood up our Center for Advanced 
Operational Culture and Language in 2004, with a recognition of 
the challenges ahead of us. It has had a very particular and 
sharp focus obviously in Iran and Afghanistan. The language 
skills in particular are difficult and long to build. We put 
them and integrate them into each one of our units in the PTP, 
our Pre-deployment Training Program.
    Probably the broader aspect of it that is relevant 
especially is really to the future where we don't know where we 
are going to go, and we have to have the ability to have a 
language capability that is targeted, and we will the increase 
in our foreign affairs and regional affairs expertise of both 
now--the officer and now newly in the enlisted level.
    But the idea is, how do you adapt to a culture, and how do 
you, again, without notice, in an area that you perhaps weren't 
predicting, you have to address a threat. A lot of that is 
related to how do you adapt, the idea of how you look at the 
human training, the cultural training, your understanding. Now, 
this is true of SOF forces where language is just one 
component, but the other one is your awareness, and be able to 
operate, and be able to look at patterns and recognize things 
as you start going into a fresh one, and that will be the new 
challenge.
    So we have had many issues focused on Afghanistan, and then 
we have to look and address a broader one. We give marines as 
they join a particular area they are going to focus on that 
they have to develop through the course of their career, the 
education and training piece. All of this is ingrained. It is a 
moving target, and we have to look at shifting to the future 
one where we won't have an established theater or forewarning 
of where we are going to actually be.
    Mrs. Davis. Do you see any of this going by the wayside 
because of budget constraints? Will there be a continuing 
emphasis as far as you can see?
    General O'Donohue. I can say explicitly, and I was part of 
the force structure review that the Commandant took as he 
recasts the Marine Corps for the future in terms of 
capabilities, and we were forced with making trades between 
what you categorize irregular capabilities and what would be 
standard as conventional. And we have about 8,000 Marines even 
at a smaller force than we had pre-OEF to give us that kind of 
capability. So senior leadership has looked at the problem and 
made most decisively in how we allocate our scarce Marine Corps 
at 186-8 and how we are going to do it, and there was that 
regular piece----
    Mrs. Davis. I was also partnering, of course, with some of 
the universities around the country, San Diego State, and my 
colleague here from San Diego knows this well also, has done a 
very good immersion program utilizing the residents in the 
community as well to help and assist with that. So I think that 
is certainly important for the future.
    And my time is up. I will come back for another round, Mr. 
Chairman, if you are doing it.
    Sir, do you have one more.
    Mr. Thornberry. Go ahead.
    General Martinez. Ma'am, in terms of language, the Air 
Force has recognized a need as we are involved in deployments 
throughout the world for language training, and our Chief of 
Staff directed a very aggressive program for airmen to start 
becoming better linguists out there in the world. We started a 
program called the Language-Enabled Airmen Program, or we call 
it LEAP. LEAP is basically, we take folks who have a minor 
understanding of a language, and then we put them through a 
very heavy immersion to get them better qualified to speak that 
language. It increases their language capability, but the 
important piece is that it is amongst the general population of 
the airmen, it is not our special forces folks that do this.
    We recently had a board that met just in September to pick 
the next wave of folks that would go through this training, and 
329 people were selected in 46 different languages. So right 
now in the program the Air Force has 772 people doing this 
training.
    Admiral Harris. Very quickly, ma'am, the Navy has got the 
LREC program, which is our Language and Regional Expertise and 
Cultural program, which again goes to the general purpose for 
sailors. I actually have an LREC course back at home so I can 
learn Spanish to add to my German.
    Additionally, our Office of Naval Research has the Human 
and Social Cultural Behavior Modeling program, which tries to 
get at that awareness, how they are trained to be more aware of 
their cultural surroundings for sailors and obviously for 
marines, because ONR works for both Navy and Marine Corps team.
    Mr. Thornberry. If I could interrupt and follow up for just 
a second. As I read the GAO's comments, again they were looking 
at the Army and Marine Corps, one of the points they make is 
that the information about what training has been completed in 
the language proficiency is not captured in the personnel 
records or within service-level training. So it is kind of like 
we don't know who we have got to do things--who had this 
capability. Something breaks out somewhere, and there is not a 
database to go and say, oh, we have got these 20 people who 
speak such and such. Doesn't that get to whether irregular 
warfare skills are institutionalized within the services?
    General O'Donohue. Sir, the Marine Corps has just started a 
database. To do that, it tracks not just language, it tracks 
operational and analytical capability if you are trying to look 
at patterns and analysis in an environment, so all relevant 
skills. We still have to get those who have experience in terms 
of the training, advisors. So it is new, it has started, we 
have addressed the problem, and we have a little way to go in 
terms of getting the full gamut of skills, not just language, 
that might be relevant.
    Mr. Thornberry. Again, part of what we are doing is looking 
for evidence, looking for signs, is this sort of capability 
really getting ingrained in the services, and I thought it was 
an interesting point that the GAO found as one piece of 
evidence, not end-all, be-all.
    Mr. Gibson.
    Mr. Gibson. Thank you, Mr. Chairman, and also to our 
ranking member, for calling this hearing. I think this is a 
very critical area that indeed we do need to have dialogue on 
the way forward.
    I thank the panelists for their leadership, for their 
service. And, in fact, General Bayer is somebody I served with 
in Mosul in some of the toughest times, and he was a 
distinguished soldier and leader, and it was an honor to serve 
with him.
    You asked the question, Chairman, earlier on about the 
future of our country and irregular warfare, and you asked the 
question broadly, does anybody disagree with the statement that 
you put forward. And clearly there is going to be a need for a 
competency or capability with irregular warfare. My nuanced 
view on this really has to do with the level of political and 
strategic, not any qualms. In fact, anything that has been 
presented here today, I agree with. I think there has been some 
good testimony already put forth.
    To me, it is fundamental to take a look at who we are as a 
people, and what does it mean to defend a republic, and how do 
we then organize our Armed Forces to do that, to protect 
America and our cherished way of life? I am of the mind that we 
ought to take a hard look at our commitments overseas, the 
requirements we levy on the Armed Forces. And I think if we do 
that, we will reorganize in a way that will actually make us 
safer and save money.
    We just came through a very difficult decade and couldn't 
be more proud of our service men and women and their families, 
deployment after deployment after deployment, and not 
complaining, just getting it done with great sacrifice and 
hardship. We can't go through another decade like the one we 
just came through, or on the other side we won't be the same 
republic. So I think that is really incumbent on us, and that 
is why I applaud the chairman calling the hearing today.
    But even with the world view that I lay out that is 
certainly a minority viewpoint right now, and I know I have got 
a lot of work on that score, there is still going to be a need 
for the strongest military in the world right here and 
deterrence that goes with it; all the maritime comments made as 
far as shared access and having a capable force here, 
prepared--a joint force prepared to go anywhere on a moment's 
notice. And then there is also the threat, the existential 
threat, that we face: Al Qaeda. Undeniable, and we have to rise 
up to that challenge, so that is where irregular warfare is 
front and center.
    Mr. Chairman, as you know, we are working this in our 
committee, and we have a provision in the NDAA [National 
Defense Authorization Act] right now for Special Operation 
Forces about the way we are going to relook that. I am of the 
mind, based on my experiences, that fusing intelligence and 
operations is key to this in actually elevating that capability 
to a global response in terms of our allies and friends. I 
think that will help make us safer and more effective in the 
war against Al Qaeda. And towards that end, that goes to some 
of what General Bayer was mentioning in terms of the two armies 
and us having that capability going forward.
    But even in the world view that I lay out, I can't say that 
the probability is zero that general forces could get involved 
in this again. I can imagine some circumstances close to home 
here where we may have to be involved in such activity.
    So really this gets me to my question, and it has to do 
with balance. It has been mentioned here in some of the 
testimony full-spectrum capability and how an institution--and 
how the institutions prepare for this, how you strike out, how 
do you prioritize. In the Army we used to call it DTLOMS 
[Doctrine, Training, Leadership Development, Organization, 
Materiel, and Soldier] we used to organize across, and 
recognizing that even before the war, we did make investments 
toward irregular warfare.
    I can think of a time when I was in the box at JRTC [Joint 
Readiness Training Center] in the fictional country of Cortina; 
5 of the 11 days in the box, it was on low-intensity conflict. 
It is just we weren't doing as well as we know that we need to 
do it now. So how do we then rise to that challenge, looking 
across the functions, doctrine, leader development, materiel, 
training, including home station unit training and joint 
training? How do we do that?
    General Bayer. Congressman, I will jump in. Tough question. 
I think the first thing you start with is if you use that kind 
of DTLOMPF [Doctrine, Training, Leadership Development, 
Organization, Materiel, Personnel and Facilities] structure, is 
your doctrine right? We think that we have got a correct 
expression of doctrine as we look forward in describing the 
environment and the type of threats our Nation may ask us to 
face.
    The second is your organization. You know, one of the 
things the Army--or both Secretary McHugh and General Odierno 
have affirmed their commitment to completing the build-out of 
Special Operations Forces. So we recognize that as we become a 
smaller Army, a larger percentage of our operating force will 
be Special Operations Forces. And that is a deliberate decision 
to enable us to have those capabilities on the higher end of 
the irregular warfare spectrum, recognizing skills like 
counterterrorism, et cetera, or require some advanced 
capabilities.
    The next piece is in the training base, how do we get to 
the point you are making of how do we integrate these two 
together in the training base? And it really is a--you got to 
want to do it, and I think that our leadership does. One of the 
things I have heard General Odierno tell the staff here a 
couple times recently is if we are the same Army 10 years from 
now that we are today, it means we failed, and we haven't 
learned anything from where we have been.
    So the guidance and the desire from the senior leaders in 
terms of looking forward across all of doctrine, organization, 
how we train leaders, et cetera, is pretty solid, but proof is 
in execution, as you know. And as resources come down, and we 
have a smaller Army, we recognize we have some challenges to 
make it happen for our Nation, but we are committed to them.
    I know I have only scratched the surface of your question.
    Admiral Harris. Yes, sir. If I could follow up, I would 
agree with using the DOTMLPF structure. You could address each 
of these, and I could address each of these in areas where the 
Navy is continuing to institutionalize that. But that balance 
question is huge, because there is such a materiel-intensive 
force, our ships, and our planes and our submarines. And, of 
course, our mission set does portend us to be prepared for that 
high-end of operations. We have to be; that is our charter. But 
we are also fully recognized through our training that we are 
going to operate as we have always done since the inception of 
the Navy in an irregular environment. They have to have those 
sailors that are able to walk across a full spectrum.
    I will just take a couple of quick examples. In our 
leadership training we have in our postgraduate school, and our 
Naval Academy and our war college, irregular warfare is part of 
that curriculum. I think there are two majors, in fact, at 
postgraduate school in California, just to highlight the 
importance of it amongst our sailors.
    In terms of the materiel, we continue to look at innovative 
techniques on how we can take our high-end platforms and make 
sure that they can support either SOF operations or other 
irregular operations by not just targeting things, but being 
able to target people as needed.
    General O'Donohue. The Commandant reported back to 
Secretary of Defense based on the results of a force structure 
review, capability review, based on a threat really expressed 
by the chairman at the beginning of this hearing. In that force 
we had a forward-deployment engagement where we are going to 
have to take some risk where we can't take the combatant 
demand. It is essentially in a Marine Corps of a 24-battalion 
base that allows us day-to-day, and then shift in terms of 
prioritized focus, specific--the Middle East or areas, not that 
we are not globally responsive, but there is a less capacity to 
do that, and there is a prioritized method of doing so.
    So those 24 battalions, essentially a sizing construct for 
the force. This idea of being crisis response, we can aggregate 
those forces that are distributed often with the Navy team. 
Single ships can come together, as I displayed an example given 
with CTF 58, to go to a more substantial operation.
    And then you get the higher end, the MCO [Major Combat 
Operations], which, again, a commitment of about 20 battalions. 
The point here and the efficiency of it is these are the same 
battalions, so they are trained at a high level, they can 
operate IW, and they can aggregate, they can distribute--
distribute operations with platoons operating 39 miles 
separate. Applying the full instruments of national power, they 
can combine and concentrate if need be.
    Took risk not just in forward engagement in meeting 
combatant demand, but also in the phase 4 and 5 operations, the 
sustained operations ashore. We can't do them, it is lesser 
included, but the force we have now of 22k is the force to do 
that. The force of the future, the 186-8k, accepts risk in that 
area. And then we use what we call the enablers. We have a very 
highly trained force, and we had those 8,000-some others, 
intelligence, EOD [explosive ordnance disposal], civil affairs, 
FAOs [foreign area officers], that you can combine together to 
apply to a problem. And just, for example, we had a tank 
battalion, a little bit of training, high-training status of 
any marine, they were able to go into a Black Sea rotation and 
satisfy most of the theater security cooperation needs of a 
COCOM [combatant command]. So force design for a conventional 
high-end threat, but, given the high level of training of some 
enablers, able to satisfy others.
    General Martinez. Sir, I think probably one of the most 
important pieces in your question is as we move in this 
irregular warfare arena, it really has to start from a 
commitment from the senior leaders of the service. And I think 
each service has to recognize the type of warfare that is 
probably expected of us in the near future.
    Some time back the Air Force made a very strong commitment 
to irregular warfare, realizing that this really is the way we 
fight now and probably will be in many respects in the future. 
And some of the actions that we took was, one, first organizing 
our force differently to include establishing an office in the 
Pentagon under the Air Force that works irregular warfare, 
doctrine, training, et cetera; also implementing training 
programs. We started a three-tier training program that is 
purely about expeditionary training and how we go to those 
different arenas and fight. We actually started an Air Force 
Expeditionary Center, which teaches courses, I think it is 
somewhere around 80-plus courses, on different things that our 
airmen need to know to work in those environments, as well as 
putting them in our professional military education, and most 
importantly is taking lessons learned. I think that is really 
crucial in this area is that we have to understand what we are 
doing, and then where we are not doing it well, and then where 
we could do better, and putting in a process to do that, we 
incorporate it as well.
    And then I think the last piece is, that we haven't 
mentioned yet today, is we have a generation of airmen growing 
up, especially our young ones, that they know nothing but this 
type of warfare. You know, we call it irregular. It is 
irregular to the old guys, because this isn't how we are used 
to fighting. To our young airmen this is the way they fight, 
this is what they know. So it is just as important as we focus 
on irregular warfare that we are also keeping our younger folks 
in the military in tune to conventional warfare.
    Mr. Gibson. So, Mr. Chairman, I know I am out of time here. 
Let me just sum up by saying I am encouraged by the responses, 
the agility, the commitment to facing and rising up to our 
challenges and threats. And in view of your comment about 
dialogue, you know, I think it is important going forward that 
we find ways that the Congress helps and not harms this vision. 
Thank you.
    Mr. Thornberry. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today.
    Over the past several years, when the leadership comes to--
the military comes before us, they talk about how language is a 
game changer, and you talked a little bit about that. One of 
the quick questions, just real briefly, I heard the Air Force 
has a program that is going across the force to the airmen to 
offer language training. Do the other branches have the same 
sort of program? Please be brief. A yes or no answer would be 
good. I don't need the details.
    Admiral Harris. Yes, sir. LREC is our program.
    Mr. Shuster. Army?
    General Bayer. Not mandatory for all soldiers.
    General O'Donohue. We have a broad, targeted program, sir.
    Mr. Shuster. I would think that this would be important. 
The GAO report says you are not inventorying who is getting the 
training. I think it is also equally important to go out there 
and offer it across the force and test people for the aptitude, 
because there may be a guy that is a logistics officer, and you 
got to have logistics people in Afghanistan, and Iraq, and 
other places in the world. So I encourage you to look at that, 
to go across the force to find a guy, a private who may be a 
genius when it comes to speaking several languages that we 
don't know about.
    So, as I said, that being so important that I heard from 
Petraeus to McChrystal, to McRaven saying it is so important, 
we should really be focusing on that.
    Second question I have is our allies, as we--the world is a 
big world, they are out there, and I know they have irregular 
forces. Are we able to use them as a multiplier force working 
together, because we operate well together? You don't have to 
point out country-by-country, but certainly are there other 
forces out there as capable as ours that we can work extremely 
well with and insert them when we can't be somewhere, or help 
them get to places we can't----
    General Bayer. Congressman, our Army experiences, there are 
a select number of armies around the world that we can truly 
operate seamlessly with. This happened with our most senior 
partners in NATO, others to varying degrees.
    One of our challenges, quite honestly, is that most of the 
nations of the world have divested themselves of support for 
security at a rate faster than our Nation. So what we see 
amongst our allies is vastly and rapidly declining 
capabilities, which makes, as we look to a future world, the 
assumption that some would make that we can get greater 
cooperation from our allies challenging, I think. But there are 
some we work very, very well with.
    Mr. Shuster. Anybody else?
    Admiral Harris. Yes, sir. Probably the clearest example 
happens in our 5th Fleet, where we have got a number of 
coalition operations that go on for our countering piracy, 
countering the proliferation of weapons of mass destruction 
that may go by sea. That is with, again, coalition navies from 
around the world.
    Mr. Shuster. I think I got a good enough answer on that to 
get an idea.
    To shorten the prep time with cultural and language 
training, some folks that I have talked to and in SOCOM 
[Special Operations Command] have advocated for--there are 
about 90 countries out there that are on the brink or could be 
failed states soon, and we may be asked to come in and help. 
And they have advocated a strategy of inserting today, 
countries that want us, an 8- to 12-man team in that country so 
that if things go bad, that we shorten the prep time, and we 
have half a dozen, dozen people on the ground that can help us.
    I just wanted your general view of that. You think that is 
a smart thing to do? Is that something we should in Congress be 
trying to push forward to get those senior leadership the 
assets and the ability to do those types of things?
    General O'Donohue. Sir, that happens every day, both in 
small teams and on a persistent basis, working with the COCOM, 
who comes up with the theater security engagement process. So 
it is not exclusive to SOCOM. There are standing relationships. 
And obviously, we have deployments with the Marines and the 
Navy, with the MEUs that go out and operate as well to 
reinforce those.
    General Bayer. Congressman, our experience has been that 
that is a worthwhile investment, and its developing capacity 
relationships are critically important as you look to the 
future. So those are worthwhile investments, and I concur with 
my Marine counterpart. We do it all the time.
    General Martinez. Sir, an important program that we have 
right now in the Air Force--it is actually the Air National 
Guard that is doing it--we have a State Partnership Program, 
where Air National Guard units are getting, basically, in a 
bilateral relationship between countries around the world and a 
State. Right now, there are 63 partnerships that occur. And 
those National Guard units with the members of that country 
will provide mentorship, they build crucial relationships, they 
ensure dialogue is flowing.
    Recently traveling with the Capstone Program, every country 
I stopped in, the locals from the country were extremely 
positive about their relationships with the Air National Guard 
and how they felt that actually really helps keep them linked 
to the United States.
    Mr. Shuster. That is great.
    I see my time is running out, but if I could just submit a 
question for the record that maybe you could answer me in 
writing. In the times we face now with tight budgets, I 
certainly am an advocate for not cutting the Defense Department 
any more. In fact, let us figure out a way to make sure we fund 
you at higher levels. But from your positions of looking at 
irregular war, looking at budgets and planning, what are the 
top priorities that we absolutely cannot touch to make sure 
that you can do the important work that you do?
    So if you could submit that in writing over the next week 
or two, I certainly would appreciate that.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Shuster. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Mr. Hunter.
    Mr. Hunter. Thanks, Mr. Chairman.
    I don't really have a question. I am a little bit curious, 
though. I know the Navy and Marine Corps have an answer to 
this. The Army probably does, too. I wasn't indoctrinated in 
Army history, so I don't know. But the Marine Corps had a Small 
Wars Manual in 1940; the banana wars; 1890 to 1930. None of 
this is new, literally. None of what we are talking about right 
now is new. The materiel is, and the new gizmos, and the 
sensors, and the UAVs [unmanned aerial vehicles], but the rest 
of this stuff is old.
    When we went into Fallujah, it was the same thing. In fact, 
I was a SASO [Stability and Support Operations] guy. They call 
it SASO now. It is a stability and support operation guy.
    None of this stuff is new. The Navy and the Marine Corps 
have been doing this for over a century, going to little 
places, getting with the local population, getting the 
guerillas on our side. The Army has probably done the same 
thing.
    So I don't know, I don't know if I even have a point 
besides this is nothing new. It is doctrinal. It has been 
around for over 100 years. It just seems like it is a new 
iteration, it is a different language, it is a different place, 
it is a different continent, maybe, than we have been in the 
past, but it is not new. And I think we have adapted extremely 
well.
    With that, I yield back the balance of my time.
    Mr. Thornberry. Mr. West.
    Mr. West. Thank you, Mr. Chairman, Ranking Member. Thanks 
to the panel for being here. I want to try to dovetail off of 
what my colleague Mr. Gibson and also what Mr. Shuster was 
talking about.
    Back in the mid- to late 1980s, we saw that the Army then 
made Special Forces a dedicated branch instead of how they had 
been doing it previously. Just recently, within the last 5 to 7 
years, MARSOC has come onboard. So my question really is this: 
As we look at the irregular warfare threats--because I think 
the most important thing is that we have to start matching our 
capability and capacity to the threats that are out there. So 
when we go across the geographic AORs [areas of 
responsibility], and we look at the irregular warfare threat--
because, sir, as you said, General Martinez, you are right. To 
the young people now, this is regular warfare. For us that grew 
up once upon a time having the Fulda Gap, this may be irregular 
warfare.
    But how do we make sure that we have the capability and 
requirements to--I mean, the capacity to meet these 
requirements? Because my biggest concern is that there is a 
shortfall out there because the enemy is seeking to fight in 
this manner. And I don't want to see us be caught much so and 
with our pants down. As our colleague Mr. Hunter said, this is 
just a repeat of things that we have seen previously.
    So the question is: Where do you see the shortfalls out 
there with our Special Operations Forces contending with the 
irregular warfare threat throughout these geographical AORs? 
And then are we looking at means by which we can retrain some 
of our conventional forces to fulfill some of those shortfalls 
and gaps?
    General Bayer. Congressman, I will start. As I mentioned, 
the Army leadership remains committed to completing the growth 
of SOF, which means about a 30 percent growth, give or take, in 
the last decade. So proportionately they are a bigger part of a 
smaller Army.
    What we have recognized really is that the GPF can do some 
of the mission sets that are commonly associated with irregular 
warfare, and it is not the exclusive domain of Special 
Operations Forces.
    As you gentlemen both know, both you and Congressman 
Gibson, you know, we have General Purpose Forces that actually 
can do counterterrorism missions in a counterinsurgency 
environment. So part of it is we have to blend those forces 
together in terms of mission profiles, so to speak.
    The other thing, I think, as we look forward, it is Phase 
Zero activities: prevent; it is being able to commit to the 
combatant commanders' forces, General Purpose Forces, to 
augment the Special Operations Forces that have very finite 
levels of languages, cultural, advise-and-assist type 
capabilities, but to take some of the burden off development of 
security capacity and use General Purpose Forces to do security 
force assistance, you know, basic skill transference 101. And 
our Regionally Aligned Brigade concept will field the first of 
those, generate the first of them, in fiscal year 2013 is aimed 
at trying to do that in the ``Phase Zero, shape the 
environment'' type of timeframe.
    So I hope that answers part of your question, sir.
    Admiral Harris. Yes, sir. Great question. And, again, I 
agree with my Army colleague, quite frankly, in the same type 
of approach. How the Navy does it, quite frankly, is through 
our partnership stations, which are General Purpose Force 
sailors on general ships that have operated in the Africa AOR 
since 2007; in the Pacific since 2004 with the Pacific 
Partnership; with the Southern Partnership Station, which has 
been going on since 2007; and Continuing Promise in about the 
same area as well.
    Now, in these partnership stations we bring together not 
just Navy, but also other services, interagency, and NGOs [non-
governmental organizations] in a number of these operations in 
order to, as we talk about Phase Zero, trying to shape the 
area. And that provides for stability operations, which is, of 
course, part of IW.
    In addition, we are looking to take some of the burden off 
of our special operators. NECC, our Navy Expeditionary Combat 
Command, has done a number of missions in the training and the 
security force assistance missions that have been transitioned 
from the SOF, from NSW [Naval Special Warfare], to NECC.
    General O'Donohue. We try to mitigate risk. Again, I 
explained before about how the Marine Corps is going after it. 
But the idea of being multicapable, and being able to aggregate 
from a forward-deployed posture where you are influencing, 
shaping, and then be able to respond to a crisis, for that 
strategic mobility is critically important. We can't predict, 
as we didn't with Afghanistan, where the next fight might be. 
We need to be able to get there to affect the initial 
conditions, reinforce a partner at the right time to do it, and 
then allow for a more considered response. That is a focus that 
the Marines have taken.
    There is a readiness aspect of it; again, a very efficient 
way to keep our units ready across the spectrum to be able to 
do this. The way we mitigate the risk as well is the Reserves. 
The Reserves have a tremendous capability--both in specific 
capabilities and resources and talents--that we can draw on to 
the Active Force both to augment or to mitigate risk as well. 
The force structure we designed at 186-8k has those elements 
and assumes that the Reserves can mitigate some of the risks 
that the Active Force has taken.
    General Martinez. Sir, I think an important point to make 
when you look at this conventional versus the irregular warfare 
and Special Ops operators out there is, what can we do to take 
the burden off them? Our country has asked a lot of Special Ops 
Forces, and, wow, have they delivered in the last 10 years.
    One of the things that we do in the Air Force is we are 
looking for ways to transfer some of those duties. First, you 
can do it by training your general populace to better 
understand language, region, culture, and the things that 
traditionally in the past Special Forces members have been 
extremely good at.
    The other is looking at actual missions. Earlier I 
mentioned an air advisor course, where we teach people to go 
out and basically teach other countries how to set up an air 
force. That role actually started and was done by Special Ops 
Forces. It was not general populace that did that; it was the 
Special Ops people who owned that mission. And within the Air 
Force we have migrated it over time through this Air Academy 
and taught our general forces how to contribute to those 
missions and let Special Ops go on and do other things.
    Mr. West. Thank you, Mr. Chairman. I guess I will yield 
back the rest of Mr. Hunter's time.
    Mr. Thornberry. We are being a little more flexible today 
because there is obviously a lot to talk about here and a lot 
of good questions and answers.
    I want to go back a little bit, because in the last few 
exchanges there has been discussion about the doctrine, how it 
is not new, and so forth. I think the concern is that while the 
doctrine may be on paper, the reality of it, when it comes to 
promotions and dollars spent and so forth, may be somewhat 
different. Let me just cite some examples and invite the 
appropriate one of you to make any comments you would like.
    So, for example, I guess for the Army, I have a study from 
the Institute of National Strategic Studies, National Defense 
University, Christopher Lamb, et al., wrote, and it is titled: 
``MRAPs, Irregular Warfare, and Pentagon Reform.'' And 
basically it goes through the history of resistance in the 
Pentagon to MRAPs [Mine-Resistant Ambush-Protected vehicles]; 
how this committee actually was a key instigator in getting 
some up-armored Humvees first and then tried to push the MRAPs. 
But he makes some statements which may or may not be true about 
the cultural resistance within the Pentagon to irregular 
warfare and to spending money on equipment which has, as its 
primary use at least, irregular warfare. It goes on to say the 
problems with irregular warfare go well beyond the acquisition 
system.
    So I don't know. General, is this something in the past, 
this problem, or are they at least in a vein of concern here 
that will extend beyond our involvement in Iraq and Afghanistan 
and inhibit our ability to prepare for the future?
    General Bayer. Sir, from my perspective, I think it is a 
thing of the past. But I acknowledge that for some people, 
change is uncomfortable, and it is something we see in every 
aspect of life. When faced with a different future and where 
you are, some people will have a hard time adapting.
    I will tell you that the guidance of our current set of 
leadership, Secretary McHugh and General Odierno, is crystal 
clear to me as an Army staff officer. And I would just echo the 
words of General Odierno: If we are the same Army 10 years from 
now that we are today, then we have not learned a thing, and 
shame on us, essentially. And he is absolutely right. And I 
don't sense amongst my peer group of leaders and those that I 
work with every day in the Pentagon a mentality that is similar 
to what was expressed relative to, you know, bringing the MRAP 
into duty.
    What I would tell you as a previously conventional forces 
soldier raised as an armor officer in armor formations, who has 
now been to Iraq multiple times, I believe the culture of the 
Army has changed to accept that, and the probability of future 
conflicts says it is going to be among the people and look 
strikingly similar to what we have seen in the last decade, and 
I think our culture has changed to accept that, sir.
    Mr. Thornberry. I think that is a fair point, let me just 
say. And I think General Martinez mentioned it a while ago. 
People who have been through this over the last decade are not 
going to go back to the way we were. I think that is a point 
well taken.
    General O'Donohue, Marines are primarily responsible for 
nonlethals, correct?
    General O'Donohue. They are the executive agent, yes, sir.
    Mr. Thornberry. This has been an issue for me for some 
time. I requested a GAO study, I don't know, some time ago, and 
the results of what the GAO found are similar to what we were 
just talking about about the MRAPs; that there is cultural 
resistance to nonlethals. Obviously, it is not exclusively an 
IW sort of equipment. But they go and talk about how many 
research and development efforts basically amounted to nothing. 
And part of it is not having the priority, not having the 
oversight, but also cultural resistance. Is this another 
example of something where, you know, the Building, if you 
will, resists spending money on things that are primarily IW-
oriented?
    General O'Donohue. Sir, I can only speak to the Marine 
position. So not to confuse with the joint program and joint 
evaluation that is an executive agent versus a Marine program, 
so within that context there is a very strong push within that 
joint nonlethal environment for programs that have actually 
been successful. The requirement was conceived, a program was 
devised, and it has been brought home. So within that context, 
separating the executive agent responsibility that is joint, to 
the Marine Corps programs themselves, there is success within 
there.
    Some of the systems there are very focused on very specific 
situations. They are not a widely capable--capability that 
gives a marine forward, say, a spectrum of effects that he 
needs. So if you give a marine, for instance, a shotgun, it 
might not be the weapon he needs to be carrying in an 
environment where he needs a full-spectrum of range.
    So I think the next development in nonlethals is to give 
them a scalable response. It is not exclusively nonlethal, but 
allows them to range up to the area of effects that he needs. 
That has really been one of technology and being able to 
integrate it, and not one of desire.
    Mr. Thornberry. Somewhere I have read in these materials 
that it is better to get something 75 percent within months 
than 99 percent within years. If we wait on the technology to 
have the dialable deal here on your weapon, we may be waiting a 
long time. On the other hand, it seems to me if we are going to 
be operating within populations, having capability such as 
nonlethals provide is an important capability.
    Admiral, let me just toss one to you. This is a little bit 
different. But I notice yesterday in the Wall Street Journal, 
Dr. Krepinevich had an article that talked about the enormous 
amount of infrastructure we have underseas, but also the 
growing capability of nonstate actors in underwater vehicles 
and the potential dangers that that presents. It is kind of a 
different sort of threat than what the Navy has traditionally 
been looking at.
    Is that sort of thing, protecting our underwater 
infrastructure--you know, oil stuff, mainly--and dealing with 
these somewhat crude, but effective underwater vehicles part of 
what you all are looking at, and what is the role of the Coast 
Guard in doing that as well?
    Admiral Harris. Yes, sir. That is an area of emphasis, 
quite frankly, inside of my office, inside the Navy and other 
parts of the Navy, to look at unmanned vehicles that can be 
used to detect deleterious actors that might use either 
personnel or equipment to target infrastructure or target 
ships. A lot of cyberspace is on the bottom of the water, quite 
frankly. That is another area where I know that our 10th Fleet 
has got interest. But we certainly are looking at the right 
investments to use systems to monitor that underwater space as 
well.
    Mr. Thornberry. It is a little different from the 
traditional Navy role, so I think that is something we will be 
interested in, too.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Again, thanks to the 
panel for a second round.
    I wanted to touch on a question Mr. Shuster had raised. 
That is what I was planning to do for my second round. There is 
obviously a variety of things that go into making up our 
national security, making sure that our Nation is protected; 
obviously, our military capability, diplomacy, and other such 
things. One of those is, obviously, our fiscal security. Right 
now, obviously, the Nation is challenged in that we have a weak 
economy, and we have exceptionally high budget deficits.
    So as we are looking across the range of what we need to do 
to get our fiscal house in order, and given the current fiscal 
environment, what aspects of irregular warfare capabilities 
right now do you feel are most at risk, and how are each of the 
services prioritizing irregular warfare as funding decreases?
    General Bayer. Congressman, what is most at risk for the 
Army are soldiers, because we recognize that our fair share of 
handling or addressing the Nation's fiscal requirements is a 
smaller Army. And our prime weapon system is a soldier. So we 
recognize that we will have a smaller Army that has to stay 
balanced.
    So the second part of that is, really, we know that in 
irregular warfare none of those mission sets is one we can 
divest ourselves of. They must remain inherently part of our 
core competencies. What it really comes down to is we have 
reduced capacity to offer to the Nation to go execute missions 
in defense of our national security, from the Army's 
perspective.
    Admiral Harris. Yes, sir. I think similarly the Navy, the 
biggest concern in terms of what is at risk as our fiscal 
pressures happen on our defense capability and our 
infrastructure is the fact that as our force structure is 
pressurized and manpower is pressurized, we are going to have 
to choose what areas we will be there to prevent crisis and do 
preventative activities, and in other areas we won't be able to 
have that forward presence that acts in a preventative way to 
stop crises.
    The other part is going to be the time to respond. With 
fewer forces spread farther out, it is going to take longer to 
respond to crises as they show up.
    So the pressure on the whole of the force, both from the 
infrastructure--the ships, planes, submarines--and the 
personnel, is going to increase our time of response.
    General O'Donohue. I concur. The issue is primarily 
capacity. Irregular warfare is embedded in what we do. As we 
come down, as we looked at the capability, the base review, is 
it balanced, and we are not coming down to a pre-OEF force, so 
there are drivers in the future fight that are related to 
irregular that have to be honored in the force structure. There 
would be a concern, again, about strategic, operational, and 
tactical mobility. This gives us a range to apply influence 
across a battlespace, and a breadth and depth an enemy can't 
cope with, in all areas of national power. Those assets--
amphibious shipping alike--and other means, the tactical 
connectors that we use at the high-end are also the ones we use 
at low-end. If you look at Haiti and the like, a replacement 
for the EFV/ACV [Expeditionary Fighting Vehicle/Armored Combat 
Vehicle], those type of things. So mobility, I think, is an 
aspect of the problem as well.
    General Martinez. Sir, I think the piece that is going to 
be really important in this is it is going to come down to 
prioritization, and I think each of us as a service needs to 
make sure that we are doing the best that we can to prioritize 
the needs. When you are in a fiscally challenged environment, 
you are going to have to make tough decisions, and those 
decisions need to really keep in mind the warfighter. They also 
need to keep in mind the conventional warfare that we could 
face in the future.
    In the Air Force, some of the things that we have done is 
we have recently implemented a prioritization change within our 
Air Force Requirements Oversight Council to help get a good, 
solid grasp on that. And I think the one advantage that we may 
have in this is by nature of the mission of the Air Force, 
conventional versus irregular is not necessarily zero sum for 
us. If we invest in good ISR [intelligence, surveillance, and 
reconnaissance] with our Predators or our Reapers, our overhead 
watch, those platforms are usable in irregular warfare just as 
much as they would be useful in a conventional battle. We could 
easily watch a single home in an irregular environment, or we 
could be watching a mass army approaching in a conventional.
    Mr. Langevin. With that, I will yield back. Thank you. 
Thank you for your answers.
    Mr. Thornberry. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I appreciate the fact that you are talking about 
prioritization. I think that is also managing talent. And if I 
could just refer to General Odierno's comments recently 
regarding the role of women in the services, he spoke to the 
fact that it is not just about allowing women to have the 
opportunities that they should be allowed, but it is about 
managing that talent in the services. And we know that the Army 
now is training elite women soldiers, female soldiers. 
Certainly, the Marines have had the FETs--the female engagement 
teams--in Afghanistan.
    Where do you put women's role in the military in that 
future that we are looking at? Odierno, again, as you quoted, 
the military shouldn't look the way it is today. If 70 percent 
of jobs in the services are barred to women, where do you take 
this discussion? I am going to put you on the spot a little 
bit, perhaps, because this is a sensitive issue to a lot of 
folks. But I am just wondering what your comments are about 
that.
    General Bayer. Congresswoman, I will happily jump in. My 
personal opinion is that there should be no boundaries for 
women. I believe that women soldiers have acquitted themselves 
exceptionally well in everything we have asked them to do. And 
the reality for soldiers over the last decade is we find 
ourselves doing things we never expected to be doing. And they, 
like their male counterparts, have performed fabulously.
    So I personally believe we should remove those boundaries. 
And the reality of the environments we fight in, there are no 
neat divisions of the battlefield that say a certain sex or 
type of person can operate, you know, in this little segment of 
the battlefield and be safe or apply their skills only there. 
The battlefield is 360. It is all around us.
    And I looked at and I have read and interfaced with some of 
our peers from allied nations who have integrated women into 
combat formations, and they have done it successfully.
    Admiral Harris. Ma'am, I will just give you a quick 
example. I relieved Michelle Howard as the Commander for 
Expeditionary Operations in 5th Fleet, and I was relieved by 
Peg Klein. So from my vantage point, women have gotten pretty 
much an equal footing in a number of areas and an increasing 
role in our Navy, and it is seamless. And it is probably more 
of a generational thing of us who are 50 and older, we can 
remember when it wasn't that way, but when you talk to the 
young sailors now, officers or enlisted, they don't see a 
difference.
    Mrs. Davis. I particularly see that in the Navy, of course.
    General O'Donohue. We are part of a comprehensive OSD 
[Office of the Secretary of Defense] review with an open mind 
to look at the facts already that were beyond the policy for 
women. I was a battalion commander in OEF, and we had a female 
convoy commander who ran a road that was arguably more 
dangerous than anybody in terms of giving us supplies based on 
the old rules and conventions. My previous aide now is in a 
female engagement team that you mentioned with MARSOC, and she 
will be at the leading end of operations in Afghanistan. So we 
are beyond the bounds of current policy of geographic 
collocation.
    Are there metrics and standards that you go with things 
into entry force where there are physical aspects of it, again, 
a complete open mind to an understanding of not a presumption 
or assumption about what can be done, but is there a rational 
reason why you couldn't?
    Mrs. Davis. Thank you.
    General Martinez. Ma'am, I am very proud of our Air Force 
and the fact that our women are in fighter aircraft as we speak 
all over the world defending our country. They have a 
tremendous record of success. They have been shot at, they have 
been hit, and they have performed magnificently.
    Having just returned in March from a year in Afghanistan, I 
was very privileged to travel throughout the country and see 
airmen pretty much everywhere. And, you know, the roles that 
our women take now, they have changed so much from the past. 
They are out there in the fight, and, you know, you can look 
and see that we have lost women to combat debts over there.
    So I am proud of our Air Force. I think we do a great job. 
I personally could never understand why we would tell somebody 
they can't do something because of their gender. That is a 
personal opinion.
    Mrs. Davis. Thank you. I appreciate your comments on that.
    And just quickly--and you can actually do this for the 
record if you would like--we have had a lot of talk about 
whole-of-government approaches, and certainly when we come to 
the area that we are discussing today, it is very important in 
terms of the interaction and the interdependence in many ways 
with the State Department, with other government entities.
    Would you, when you have a chance, take a moment to just--
how, specifically, are you doing things differently in your 
service with the State Department today, and what do you see is 
lacking? You know, is there something that would make a 
difference in terms of being more successful at that 
relationship and as we move forward in the role that is played 
as we talk about irregular and conventional forces? What would 
you like to see that look like, and what do you think we ought 
to be doing to ensure that that is a reality?
    I know the chairman and I have spoken about this before, 
and we know we are not there, that there is a great deal to be 
done. Different people have suggested something more akin to a 
jointness kind of document, if you will. I am not sure if that 
is the right answer. But what is it that would actually push 
this in the direction that you think would be better for the 
country and would fit in more with the discussion that we have 
today?
    I would appreciate that when you have a chance to do that. 
Thank you very much.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Thornberry. Great question.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman.
    And, Mrs. Davis, hopefully I can get a front-row seat to 
the next GI Jane, Part 2. I will agree with you that the modern 
battlefield is totally different than the battlefield that we 
originally saw, and we have to look at how we can integrate all 
people on that battlefield.
    With that being said, Mr. Chairman, I have one last 
question. I just found out I have a phone call coming from the 
Administrator of FAA [Federal Aviation Administration], so I am 
going to have to run out.
    But, you know, when we look at irregular warfare, and we 
look at how this enemy set is, I think there is one thing that 
we see as a commonality, except for Afghanistan, and that would 
be the littorals. So my question is: How are we developing that 
capability to once again make sure that we can contend with an 
enemy in this littoral environment, and also making sure that 
we keep those sea lanes of commerce and trade open? Because as 
we saw a few years ago, who would have ever thought once again 
that we would be dealing with piracy at sea?
    Also, an addendum to that question is: As General Odierno 
said, we don't want the Army to look like 10 years from now as 
it is today. Is the Army taking into account that once again it 
may have to get involved in those type of operations as well?
    Admiral Harris. In terms of littoral warfare, I say that 
the Navy and Marine Corps team is taking great strides to 
increase our ability to operate in the littoral. One of the 
examples is our stability operations doctrine that we are 
working right now. The Marine Corps is the lead. The Coast 
Guard and Navy work in support of that doctrine. But even 
beyond that, how we do our partnership stations, again, to make 
sure we have that cultural awareness in those areas in Phase 
Zero to try to keep it from getting past that or into Phase One 
or into a higher level of warfare. So we are continuing to 
emphasize our expeditionary knowledge inside the Navy as part 
of the Navy-Marine Corps team.
    I will give the balance of my time to my Marine Corps 
counterpart, which I am sure has more examples.
    General O'Donohue. Again, you would have to ask the Marines 
about the importance of littorals, sir. But 75 percent of the 
world population, the large aspect of the problems they face in 
the future are related to littorals. We are a maritime nation. 
How do we project power; how do we deny sanctuary to the enemy; 
and how do we provide options from a sovereign base, a U.S. 
naval ship that doesn't need basing rights? As we start coming 
back from our forward presence and basing, and with the 
anticipation of an unpredictable future, it is unstable, what 
gives us the strategic mobility to allow us to influence the 
action?
    Working with the Navy on significant exercises, Bold 
Alligators continue with partner nations; working with the 
Australians, who are developing two amphibious ships; and 
obviously the Pacific, an area of interest, economic and every 
way--security--with a key chokepoint in the Straits of Malacca; 
the influence of extremism, not yet a predominant factor in the 
Pacific, but potential, and the idea when the Marine Corps 
comes out of Afghanistan, our prioritization will be the 
Pacific; and then, obviously, with the global reach, to affect 
other littorals.
    So you will see a rebalancing--in fact, came today--both of 
us will be at a littoral maneuver war game jointly between the 
Marines and Navy--in fact, all the services--to look at the 
problems you address, sir.
    General Bayer. Congressman, just briefly, the Army role is 
really part of the joint operational access concept, which is 
currently under development. So we recognize as part of the 
joint team we have a role. And we think we have a very heavy 
role in the Phase Zero shaping engagement operations because 
predominantly security forces around the world are land-based. 
So that is part of our role, to help give us access in the 
littorals.
    Mr. West. Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Thank you.
    Let me ask each of you to address organization for a 
second, because, you know, I somewhat stumbled over introducing 
each of you with your various titles. It is only the Navy that 
has someone who is Director of Navy Irregular Warfare Office, 
not that titles necessarily limit the scope. But I am struck by 
the fact that to really deal with what we are talking about 
today, ingraining throughout the services this capability, 
skill set, way of thinking, you are talking about not only 
doctrine, but the organizational structure, training, the 
acquisition, leadership development, personnel assignments.
    And I guess my question is how do you--and let me 
acknowledge it has got to come from the top, absolutely--but 
how does somebody other than the one at the top, whether it is 
you all's positions or somewhere else, keep a watch on this 
every day? How do you ensure that somebody is there kind of 
raising the hand, saying, well, how does that affect irregular 
warfare; or, is this a capability good for irregular warfare?
    I am not interested in a flow chart, but I am interested 
more in the practical. In your organizational structures for 
each of the services, how does that work? Who is the advocate?
    General.
    General Bayer. Sir, at the department level, it is me. I am 
delegated through my boss, the G-3/5/7 in the Army, by the 
Secretary of the Army, as our lead for irregular warfare, in 
accordance with Department of Defense guidance. So from an Army 
policy proponency strategy perspective, it is me. Colonel 
Andrew Dennis, who is a U.K. officer who sits behind me, leads 
our division that does that on a day-to-day basis. We partner 
predominantly with our Training and Doctrine Command for 
concept development, material development, et cetera. We have a 
number of institutions. The Irregular Warfare Fusion Center 
that is out at our Combined Arms Center at Fort Leavenworth, so 
soon-to-be-Lieutenant General Perkins has that. Our 
Peacekeeping and Stability Ops Institute at Carlisle does 
stability operations.
    So we have a defined network. I am the Army staff officer 
that is responsible for it, and we partner with our Training 
and Doctrine Command.
    Mr. Thornberry. Let me just ask a follow-up, and then each 
of you all can address the follow-up, too.
    So if you think that irregular warfare capabilities are 
being shorted in acquisition decisions, or that there is--the 
personnel decisions are not being made appropriately for people 
with that skill set, can you influence that, or at least bring 
it to somebody's attention?
    General Bayer. Yes, sir. We have a number of forums as we 
look forward both through concept development on the training/
doctrine side of the house. And then on the resource allocation 
side of the house, you know, we have a set of regularly 
prescribed forums that help us develop on, you know, an annual 
basis that 5-year program where I inform my boss. So we vote, 
so to speak.
    Mr. Thornberry. Admiral.
    Admiral Harris. Yes, sir. As you already pointed out, I am 
the Director for Irregular Warfare for not just the Chief of 
Naval Operations, but also the representative for the Secretary 
of Navy as well. And, believe me, I get asked constantly what 
are we doing, are we doing enough, how can we do more, from my 
chain of command.
    I engage quite often with OSD/SOLIC [Office of the 
Secretary of Defense for Special Operations/Low Intensity 
Conflict] on the policy side, also with Irregular Warfare on 
the capability side on what our capacities are. At the fleet 
level we have got, again, fleet forces and PAC fleet, who we 
integrate and we talk to and work with daily. Doctrine commands 
and schools I have already mentioned.
    Beyond that, we have established a network we call our 
Confronting Irregular Challenges Community of Interest, which 
has got about 30 or more different organizations not just from 
the Navy, but from academia and other services as well that 
highlight and bring up irregular warfare capabilities and needs 
to confront these challenges. We have been meeting now for 
several months as we have been implementing the instruction 
division from our CNO.
    General O'Donohue. Sir, I am responsible for capability 
development writ large for the Marine Corps. We are in a 
process of transition. The Commandant has given clear guidance 
about the emphatic importance of irregular warfare to the 
future, and his guidance was in his transition point: How do we 
strengthen and consolidate numerous efforts to the urgent need 
of the current war; how we rationalize them for the future?
    We had stood up a Center for Irregular Warfare in 2007, 
which has custody for all aspects of irregular warfare. It was 
a stand-alone center. It is maintained at center status. It has 
now been brought into my organization. So just as we look at 
fires, maneuver, irregular warfare is represented in every 
aspect and every move related to combat development across all 
aspects of DOTMLPF.
    So, again, I think it is a mark of the maturation of how we 
look at irregular warfare that it has been brought in so 
tightly to the institution.
    General Martinez. Sir, I mentioned earlier that in the Air 
Force we actually established an office in the Pentagon to 
oversee irregular warfare. This was a big shift in transition 
for us as we moved into this new type of fight. And we 
recognize that, and we now have that office in place, and they 
are working with things like doctrine, and tactics, and 
training, et cetera.
    Your question about then who is your advocate, well, 
certainly they are an advocate. I will tell you, in my opinion, 
I think our real advocate is our airmen that are out there in 
the field every day. I think it is fair to say, just as like 
our fellow services here, they have deployed so much, that I 
don't think they would accept anything less than good training, 
than good equipment, and all the things that go with it. I know 
personally I have deployed four different times already to the 
Middle East, and I am amazed at the level of where I was on my 
first deployment and, on my most recent deployment, the level 
of training, equipment, and preparation that I was provided by 
our service to go do that job.
    Mr. Thornberry. General, does the new office in the 
Pentagon have the ability to weigh in on personnel decisions 
and acquisition decisions?
    General Martinez. The office is not under the acquisition 
realm, but they certainly have an input to it. They are under 
what we call our A3/5, which basically runs our operations and 
plans for the Air Force. And the A3/5 has inroads to 
acquisition. We work with them every day, working requirements 
and the things that the Air Force needs. In addition to that, 
they have inroads to the A8, which runs our money. So they are 
absolutely connected to it, they have a voice, and they have an 
advocate as our A3/5, our three-star general.
    Mr. Thornberry. I just think that is key to go from 
doctrine to the hard decisions that are made every day about 
people and money, which is kind of where the rubber meets the 
road.
    Another example might be, if one were to--I think nearly 
all of you all have mentioned professional military education, 
which I would argue may be even more important in a time of 
declining resources than it is at any other time, if you look 
historically. But I just wonder if you looked at the courses 
that are currently offered kind of cumulatively in all the 
schools, how many would be irregular warfare-connected courses, 
and how many would be more of what we think of as conventional 
warfare-connected courses? Again, there is no one piece of 
evidence that tells us anything definitive, but I just wonder 
if that is a piece of evidence that might enlighten us as to 
where our emphasis is being put.
    Anybody have a comment?
    Admiral Harris. I will go ahead and jump on that first, 
sir. I will start with Newport, the Naval War College and their 
Center for Irregular Warfare and Armed Groups. It has hosted 
our irregular warfare conference the past 2 years. It has 
become part of their curriculum to a greater extent.
    Go to the National Defense University, which Admiral 
Rondeau runs, and their Center for Complex Operations. There is 
great work there that looks across all the services.
    The Naval Academy I have already mentioned. We have 
irregular warfare incorporated into their curriculum.
    And then to the Naval Postgraduate School, which has got 
two majors, I believe, there in irregular warfare.
    Mr. Thornberry. I guess my question really is--I mean, no 
question, there are specific things going on in each of the 
services. I am just kind of trying to sit back and look at the 
cumulative total. Where is the greater emphasis? Are these kind 
of ones and twos, these sorts of programs and courses? Or, when 
you take a look at the whole PME [professional military 
education] complex, how does the emphasis fit?
    General O'Donohue. Sir, I can give you for the Marine Corps 
representative. Our Command and Staff College is one-third 
specific to irregular warfare. Again, it is hard to tease it 
out. For instance, our Marine Corps planning process, we used 
to look at mission analysis. Now we do problem framing, which 
takes all aspects of irregular warfare. So that is not specific 
to irregular warfare in this part of the curriculum, but a 
third of the curriculum is absolutely specific to irregular 
warfare, and the rest, obviously, relates. And this is in the 
context of the Commandant's guidance. In a period of declining 
resources, we will increase education and training to the 
Marines.
    General Martinez. Sir, in our School of Advanced Air and 
Space Studies, which is really a graduate-level PME that we 
have in the Air Force, it is a short anecdote, but just to give 
you a number, information warfare lessons are now in 6 of the 
11 courses, so over 50 percent.
    Mr. Thornberry. Thank you. That is helpful.
    Let me ask one more thing, and then I will yield to Mr. 
Langevin.
    Somebody--Conaway, I think--asked earlier whether the 
abolishment of Joint Forces Command made any difference to what 
you all are doing. And it turns out just this morning I see in 
a magazine called Training and Simulation Journal, and the 
title is: Modeling Irregular Warfare.
    You know, one of the things the Joint Forces Command was 
tasked to do was to be a Center of Excellence for simulation 
and modeling. This article goes on to talk about, of course, 
how difficult it is to have simulations for irregular warfare; 
all of the different variables, and so forth. But basically it 
says we are better than we used to be, but still not very good 
at doing that.
    I am wondering, in that case--thinking, again, about 
training and education efforts, how do you all see where your 
service is as far as modeling and simulation when it comes to 
these sorts of--these types of engagements?
    Admiral Harris. I will go ahead and jump on this one again.
    One of the areas that our Office of Naval Research is 
pushing is efforts on human, social, cultural, and behavioral 
modeling program. It has been going on for some time now. Code 
30 and 34 in ONR [Office of Naval Research] are the ones who 
are leading that effort. Again, that is for both the Navy and 
Marine Corps, and other services as they see utility in that 
type of model simulation.
    Additionally, from the campaign level, our assessment 
division, N81, also works toward how to model that irregular 
warfare to a greater extent. So we are trying to do it from the 
campaign level down to the individual training of individual 
sailors and marines.
    General O'Donohue. Just to build on that, again, the 
companion is obviously training and exercises that are not 
strictly modeling, if you will. The high-fidelity exercises 
that approach that and are supported by the modeling are ones 
that we participate and host regularly.
    Mr. Thornberry. Well, it just seems to me this is an area, 
kind of going back to something Mrs. Davis was talking about, 
where this has to be not only joint among the services, but 
interagency. And without a Joint Forces Command to do that sort 
of modeling and simulation, I think it is something I would 
expect would fall off somewhat because it is not--it is going 
to be unlikely, I think, any of the individual services would 
do that kind of broad look. So it is something I am kind of 
interested in.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    The Internet obviously has changed the world in so many 
ways, not the least of which is our Nation's sense of use of it 
in the military and how it has affected modern warfare. It is 
obviously a very powerful tool for our military. So it is for 
both peer adversaries as well as asymmetric actors. So because 
of that dependence, obviously we will never see modern conflict 
again where we don't have a major cyber component as a part of 
it.
    How does our use of cyberspace impact irregular warfare, 
and how are we making use of that capability?
    General Bayer. Sir, probably if we really wanted to have an 
honest discussion about it, it probably needs to be a 
classified discussion. I will say at the unclassified level, 
based on my personal experience in irregular warfare, we know 
our adversaries all use cyber. They use it to organize. They 
use it to transfer resources. They use it to pass propaganda. 
So it goes without saying that we have to develop then the 
tools to counter that in that domain in order to be able to, 
you know, prosecute both counterinsurgency, counterterrorism, 
et cetera.
    The services are all beginning to invest significant--I can 
speak for the Army--significant additional resources into 
cyber. We are working with Army Cyber Command and U.S. Cyber 
Command to try and define what it is we are exactly looking for 
as we look forward. But as we look at a smaller Army, one of 
the things we know is going to grow is cyber. We have kind of 
put a bill on the table as a placeholder that said over the 
next 5 years or more, cyber is going to grow by hundreds of 
spaces to develop the capabilities we need. We haven't 
necessarily defined them finitely yet, but we recognize it is 
increasingly important.
    Admiral Harris. Sir, I would completely agree with General 
Bayer that cyberspace is a contested domain. To have a real in-
depth conversation about it, you have to go classified. But we 
have established recently our 10th Fleet, which is our cyber 
fleet, again, working with U.S. Cyber Command.
    I mentioned in my opening statement the word ``information 
dominance,'' which is our phrase for talking about the 
activities, and the personnel, and the systems that are needed 
to dominate that space, just as we do the maritime, the air, 
and the land, in order to win our Nation's wars, and hopefully 
prevent us from having to get into war.
    General O'Donohue. Sir, the same. Air, land, sea, the 
electronic spectrum, and in cyber are aspects that we integrate 
and need to dominate not just at the strategic level, but at 
the tactical. We have created a Marine Forces Cyber Command 
that has both the mission to support marines forward, and also 
one that directly corresponds to irregular warfare and its 
larger mission.
    We have at the tactical level--before we had a fire support 
coordinator, who did kinetic effects. We have nonkinetic 
effects we are looking at. And we are looking at integrating 
cyber, electronic warfare, IO [information operations]--in 
fact, these areas are all converging--so you have an integrated 
capability, not just one, but integrated both with nonlethal 
fires and maneuver, with marines forward.
    General Martinez. Sir, without doubt, in this day and age, 
you have got to have an offensive and a defensive cyber 
capability. The actual capabilities that we have are mostly 
classified, but in generic terms, you can certainly see that 
using our space assets and cyber assets, we use them for things 
as simple as navigation, weather, intelligence, communications, 
and many other things. I would be happy to get into specifics, 
if you needed to, in a classified forum.
    Mr. Langevin. I know this is something that the chairman 
and I spent a lot of time on and cyber space, cyber security is 
an issue that obviously is growing in importance and presents 
unique opportunities, but also great challenges to our Nation 
and our Nation's military. Thank you for your perspective on 
that.
    With that, I will yield back.
    Mr. Thornberry. I thank the gentleman.
    Where I would add, that evolution and maturation of 
doctrine is really critical and not just within the services, 
but within the country as a whole. Enormous challenges. More 
than the technical, I think, the law, and the policies, and 
doctrine and so forth.
    Admiral, let me just follow up. If you would like, you may 
certainly want to follow up with a written answer. But would 
you just make a brief overview about the relationship between 
you all and the Coast Guard when it comes to irregular warfare? 
Seems to me they have some law enforcement authorities that 
complement, hopefully, what you all do.
    Can you just comment on that briefly?
    Admiral Harris. Yes, sir, I would be glad to, because my 
last operational tour, the PATFORSWA [Patrol Forces Southwest 
Asia], which was operating in the Arabian Gulf, came under 
Expeditionary Strike Group 5, so I worked with the Coast Guard 
on a daily basis.
    What we find with the Coast Guard, quite simply, is this. 
While the Navy maybe has capacity out to here in the number of 
ships, and sailors, and planes and the things we have to go out 
and do our mission, our authorities are fairly narrow because 
we are Title 10. On the other hand, the Coast Guard has got a 
culture and has got capability and has a way of doing these 
things, and they have got a lot of entryway with the 
Departments of Interior in a number of nations that really hit 
the home of what the preventive actions that have to happen.
    Unfortunately, the Coast Guard only has capacity out to 
here, so it is trying to marry those two up, and we have been 
successful with our LEDET [Law Enforcement Detection] 
operation. We have been successful with the forward-deployed 
Coast Guard that has operated in the 5th Fleet of operations, 
working with the nations inside that area. We have been 
successful in the MOTR, the Maritime Operational Threat 
Response, again working with the Coast Guard.
    And then going back to our strategy that is signed off by 
our Chief of Naval Operations, by the Commandant of the Marine 
Corps, by the Commandant of the Coast Guard. So we have gotten 
stronger and stronger and better and better in working together 
to try to fill those gaps.
    Mr. Thornberry. Well, I just offer that as you look at that 
interworking relationship, if there are authorities issues that 
we can help clarify, then let us know, because I think your 
description of the situation is very good, but maybe we can 
help marry those up a little bit if there is a need to do that.
    The last question I have is I think General O'Donohue 
mentioned hybrid warfare. And mostly when we think about 
irregular warfare, it is what other people are doing to us. In 
a general sense, are we working on the doctrine of how we may 
want to use irregular warfare against others?
    General O'Donohue. Yes, sir. Again, everything is about an 
asymmetric advantage. The relevance of the population is 
something that we assume almost in every context. We have the 
ability to distribute. Again, we talked about platoons that 
were operating 39 miles at distance. They can combine. And 
really it is about giving options to commanders at the lowest 
level with the broadest sense of combined arms, both lethal and 
nonlethal, so he can use the tools to the best advantage 
against an opponent that now is presented with a dilemma. We 
can attack across the breadth and length of the operating 
environment. We can use all the instruments of national power. 
So incredible flexibility.
    If there is one definition for irregular warfare, it is 
that it is without pattern. The next threat will be different 
than the other one. So the idea of training and education, for 
forcing adapt very quickly, and now he has all the tools in the 
echelon, from the tactical to the operational and then to the 
strategic. Signals intelligence. EW [electronic warfare] is one 
example of that. It has freed up a tremendous amount of 
maneuver in the battlespace. Cyber is potentially another in 
that category.
    General Bayer. Sir, I would just echo those comments. 
Absolutely. And for the Army it is about what we call one of 
our core competencies, Combined Arms Maneuver. But it is the 
application of all the resources you have in a manner that 
gives you a decisive advantage. And what we recognize is there 
is no pattern necessarily, so it is how we aggregate these 
resources. So we absolutely are focused on it.
    Mr. Thornberry. From my standpoint--and you mentioned it--
from the tactical to the strategic level, and sometimes I think 
we are better at the tactical, maybe, than looking at irregular 
warfare from a strategic level, which also deserves our 
attention.
    I think that is all the questions we have for now. Again, 
thank you, each of you, for being here and for your answers. 
This was helpful to me, and I think it was to other Members, 
too. This is obviously an issue that we want to continue to 
follow in the months ahead.
    But with that, again, with our thanks, the hearing stands 
adjourned.
    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            November 3, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 3, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1528.001
    
    [GRAPHIC] [TIFF OMITTED] T1528.002
    
    [GRAPHIC] [TIFF OMITTED] T1528.003
    
    [GRAPHIC] [TIFF OMITTED] T1528.004
    
    [GRAPHIC] [TIFF OMITTED] T1528.005
    
    [GRAPHIC] [TIFF OMITTED] T1528.006
    
    [GRAPHIC] [TIFF OMITTED] T1528.007
    
    [GRAPHIC] [TIFF OMITTED] T1528.008
    
    [GRAPHIC] [TIFF OMITTED] T1528.009
    
    [GRAPHIC] [TIFF OMITTED] T1528.010
    
    [GRAPHIC] [TIFF OMITTED] T1528.011
    
    [GRAPHIC] [TIFF OMITTED] T1528.012
    
    [GRAPHIC] [TIFF OMITTED] T1528.013
    
    [GRAPHIC] [TIFF OMITTED] T1528.014
    
    [GRAPHIC] [TIFF OMITTED] T1528.015
    
    [GRAPHIC] [TIFF OMITTED] T1528.016
    
    [GRAPHIC] [TIFF OMITTED] T1528.017
    
    [GRAPHIC] [TIFF OMITTED] T1528.018
    
    [GRAPHIC] [TIFF OMITTED] T1528.019
    
    [GRAPHIC] [TIFF OMITTED] T1528.020
    
    [GRAPHIC] [TIFF OMITTED] T1528.021
    
    [GRAPHIC] [TIFF OMITTED] T1528.022
    
    [GRAPHIC] [TIFF OMITTED] T1528.023
    
    [GRAPHIC] [TIFF OMITTED] T1528.024
    
    [GRAPHIC] [TIFF OMITTED] T1528.025
    
    [GRAPHIC] [TIFF OMITTED] T1528.026
    
    [GRAPHIC] [TIFF OMITTED] T1528.027
    
    [GRAPHIC] [TIFF OMITTED] T1528.028
    
    [GRAPHIC] [TIFF OMITTED] T1528.029
    
    [GRAPHIC] [TIFF OMITTED] T1528.030
    
    [GRAPHIC] [TIFF OMITTED] T1528.031
    
    [GRAPHIC] [TIFF OMITTED] T1528.032
    
    [GRAPHIC] [TIFF OMITTED] T1528.033
    
    [GRAPHIC] [TIFF OMITTED] T1528.034
    
    [GRAPHIC] [TIFF OMITTED] T1528.035
    
    [GRAPHIC] [TIFF OMITTED] T1528.036
    
    [GRAPHIC] [TIFF OMITTED] T1528.037
    
    [GRAPHIC] [TIFF OMITTED] T1528.038
    
    [GRAPHIC] [TIFF OMITTED] T1528.039
    
    [GRAPHIC] [TIFF OMITTED] T1528.040
    
    [GRAPHIC] [TIFF OMITTED] T1528.041
    
    [GRAPHIC] [TIFF OMITTED] T1528.042
    
    [GRAPHIC] [TIFF OMITTED] T1528.043
    
    [GRAPHIC] [TIFF OMITTED] T1528.044
    
    [GRAPHIC] [TIFF OMITTED] T1528.045
    
    [GRAPHIC] [TIFF OMITTED] T1528.046
    
    [GRAPHIC] [TIFF OMITTED] T1528.047
    


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            November 3, 2011

=======================================================================

      
      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. SHUSTER

    General Martinez. Irregular Warfare has become even more important 
in dealing with global security threats. The Air Force must continue to 
maintain the ability to respond with kinetic capability as well as 
build partnerships with other air forces to bolster international 
cooperation, sustain powerful, global forces for stability, and ensure 
access to the global commons.
    The FY12 PB continues to support the ISR (intelligence, 
surveillance and reconnaissance) personnel and infrastructure needed to 
successfully prosecute the irregular campaigns we have in Iraq and 
Afghanistan. For the foreseeable future, we expect this demand for ISR 
to continue. The Air Force will also continue to engage in aviation 
partnering activities with foreign nations in order to develop 
professional aviators, support staff and effective infrastructure. 
There are extremely difficult decisions the Air Force will have to make 
to prioritize limited resources and prepare for a wide range of 
evolving security threats the nation might face. These decisions must 
be based on strategic considerations, not compelled solely by budget 
targets. The Air Force will prudently evaluate the future security 
environment, deliberately accept risk, and devise strategies that 
mitigate those risks in order to maintain effective capabilities 
against those evolving threats. [See page 20.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. DAVIS

    General Martinez. The interagency relationship between the US Air 
Force (USAF) and Department of State (DoS), as well as USAID, is very 
strong and growing stronger. Both in terms of philosophical recognition 
among Air Force leadership for the need for a closely-linked 
interagency team and in terms of formal programs and communications, 
the USAF and DoS are working together every day.
    While we are making excellent progress building the interagency 
relationship, we are still striving to improve. First and foremost, we 
need to better communicate our current efforts, progress made, and 
continuing opportunities both inside and outside the departments to 
help improve interagency coordination and interaction. Second, we must 
continue to support our existing interagency training and outreach 
efforts with sufficient personnel, funding, and policy to ensure these 
activities will endure.
    In terms of conventional, steady-state forces, USAF-DoS exchanges 
are well-supported on both sides of the interagency team. The USAF 
currently has 21 positions embedded within DoS, with plans to expand to 
25 under the new draft agreement between the departments, including a 
Major General who serves as the Deputy Assistant Secretary in the 
Political-Military Affairs Bureau. DoS, in turn, provides up to 10 
Foreign Policy Advisors to USAF commands. In addition, advisors are 
provided to warfighting commanders on an as needed basis to establish 
greater interagency cooperation in current planning and operations. In 
this way, future DoS leaders are gaining more experience working with 
their defense counterparts.
    We have several programs that are aimed at improving the knowledge, 
capability, and integration between the USAF and DoS. In 2004, the Air 
Force initiated the Political-Military Affairs Strategist (PAS) program 
to develop interagency and international expertise among its future 
senior leaders. Each year, the program competitively selects up to 100 
mid-level Air Force officers who have shown the potential for 
advancement to senior level positions and provides them formal 
education and on-the-job experience in a position with strong 
interagency and/or international engagement. Upon completion of the 
program, the officers are placed back on their primary career path for 
command, joint staff, and other career-developing positions. In 
addition, the Air Force has up to 5 field grade officers per year 
completing their intermediate- or senior-level service school through a 
fellowship at DoS. In these ways, the Air Force is developing a cadre 
of mid-level officers who will be tracked throughout their careers for 
their acquired political-military expertise and future senior-leader 
assignments. It should be noted that among these officers, promotion 
rates have exceed the Air Force averages to Lieutenant Colonel and 
Colonel. Beyond these dedicated political-military affairs specialists, 
interagency lessons have been built into the curriculums of our 
professional military education, and the interagency training 
opportunities being offered to both our Regional Affairs and 
International Health Specialist career fields are further expanding 
interagency awareness and opportunities throughout the force. [See page 
29.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 3, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. Following up on DOD Directive 3000.05, issued in 2005, 
DOD Instruction 3000.05, issued in 2009, states that it is DOD policy 
that Stability Operations ``shall be given priority comparable to 
combat operations and be explicitly addressed and integrated across all 
DOD activities including doctrine, organizations, training, education, 
exercises, materiel, leadership, personnel, facilities, and planning.'' 
Despite this clear directive, and despite being fully-engaged in 
counterinsurgency campaigns for the past 10 years, our combat units 
devote only a fraction of their pre-deployment training to attaining 
proficiency in stability operations. What is being done to address this 
disparity?
    General Bayer. The Army must prevail in current fights while 
ensuring that we retain depth and versatility as the Nation's force of 
decisive action across the range of military operations. Future 
battlefields will be populated with hybrid threats: combinations of 
regular, irregular, terrorist, and criminal groups. The Army must 
retain the flexibility to operate both in missions requiring maneuver 
over extended distances, and in missions requiring the establishment of 
security over wide areas; whatever the threat. During these campaigns, 
re-establishing security is an essential prerequisite for a return to 
civilian control. Until that is done, deploying forces must be prepared 
to protect themselves and defeat any threat they may encounter while 
performing their mission. As host nation security forces assume a 
larger role in maintaining the security environment, fewer U.S. 
security forces are required for that role--as is the case now in 
Afghanistan where an increasing percentage of U.S. Army personnel are 
required for security force assistance. The Army established the 162nd 
Brigade at Fort Polk, Louisiana, in May 2009 to train deploying 
advisory teams. In response to the 2010 Quadrennial Defense Review, the 
Army increased the 162nd's capability to provide increased training 
support to stability operations.
    Beginning in February 2012, the U.S. Army Joint Readiness Training 
Center at Fort Polk will integrate the training of a significantly 
increased number of Security Force Assistance Teams responding to 
Theater requirements. The Army requires all deploying forces/personnel 
to meet theater-specified counter-insurgency (COIN) qualification 
requirements. Furthermore, the leadership in all deploying combat 
brigades, division, and corps attend a COIN seminar conducted by the 
Army's COIN center of excellence at Fort Leavenworth. Stability 
operations are being internalized by the Army. Army Doctrinal 
Publication 3-0, Unified Operations, recognizes stability operations as 
integral to decisive action by Army units during unified operations. 
Rotations at U.S. Army Combat Training Centers for non-deploying forces 
are being redesigned to emphasize combined arms operations and wide 
area security, both of which are Army core competencies that enable 
return to civilian control. Additionally, the Army is developing a 
concept to regionally align a brigade with security cooperation 
capability/training to each geographic Combatant Commanders.
    Mr. Miller. Following up on DOD Directive 3000.05, issued in 2005, 
DOD Instruction 3000.05, issued in 2009, states that it is DOD policy 
that Stability Operations ``shall be given priority comparable to 
combat operations and be explicitly addressed and integrated across all 
DOD activities including doctrine, organizations, training, education, 
exercises, materiel, leadership, personnel, facilities, and planning.'' 
Despite this clear directive, and despite being fully-engaged in 
counterinsurgency campaigns for the past 10 years, our combat units 
devote only a fraction of their pre-deployment training to attaining 
proficiency in stability operations. What is being done to address this 
disparity?
    Admiral Harris. The Navy routinely conducts Stability Operations as 
part of its forward presence, as evidenced by humanitarian assistance 
and disaster response (HADR) operations from the sea in Haiti, 
Pakistan, and Japan, coalition counter-piracy operations in the Gulf of 
Aden, support to NATO forces operating in Libya, support to USCG law 
enforcement activities, and Partnership Station engagement in the 
Pacific, Africa, and Latin America. Over the past three years, the Navy 
has under taken a number of initiatives to enhance its capabilities in 
this mission area. Admiral Roughhead, as CNO, established the Navy 
Irregular Warfare Office (NIWO) in July 2008 as the Navy's advocate for 
actions subsequently directed by DoDD 3000.07 and DoDI 3000.05. The 
Navy Vision for Confronting Irregular Challenges, promulgated in 
January 2010, places special emphasis on Stability Operations and 
building partner capacity as a measure to prevent instability. NIWO 
works closely with the OPNAV staff, other Services, USSOCOM, geographic 
combatant commands, the Interagency and foreign partners to advance 
comprehensive approaches for preventing and responding to instability.
    With regard to pre-deployment training, deploying Navy units 
participate in Agile Quest, a Special Operations Force (SOF)-Fleet 
training exercise, Amphibious Task Group work ups, and leader training 
in Naval War College Maritime Staff Officer Courses. The Navy 
Expeditionary Combat Command (NECC) established the Expeditionary 
Training Group (ETG) to conduct a range of Maritime Expeditionary 
Security Force (MESF), Riverine, Explosive Ordnance Disposal (EOD), 
Mobile Diving and Salvage Unit (MDSU), Expeditionary Intel and Civil 
Affairs integrated training, focused on Phase Zero stability operations 
to build partner maritime capacity. This training emphasizes Joint, 
Coalition and Interagency coordination to achieve partner nation 
security objectives. In addition, the ETG has been designated the 
executive agent by U.S. Fleet Forces and Pacific Fleet commands to 
conduct staff planning and mission rehearsal for Navy Partnership 
Station deployments to the Pacific, Africa, and Southern commands. 
These missions, conducted in cooperation with U.S. country teams, work 
closely with the navies and civilian authorities of developing nations 
to enhance stability. NECC has established, trained, and deployed 
crisis response Adaptive Force Packages (AFPs), consisting of staff and 
seleted NECC forces, to respond to Humanitarian Asssitance/Disaster 
Relief (HA/DR), Non-combatant Evacuation Operation (NEO), Maritime 
Infrastructure Protection or other short fuse contingency missions. The 
Navy's specialized ability to support Stability Operations exists in 
the NECC Maritime Civil Affairs and Security Training Command (MCASTC). 
MCASTC provides Maritime Civil Affairs Teams for routine deployment in 
support of Fleet Civil Military Operations and when required, for 
specific support to Counterinsurgency, Counterterror, Foreign Internal 
Defense, and Security Cooperation missions. MCASTC maintains Maritime 
Civil Affairs Teams as an on-call surge capability for HA/DR efforts 
such as operation UNIFIED RESPONSE in Haiti. Additionally specialized 
Civil Affairs Staff units are available to augment Fleet and Joint Task 
Force staffs planning Security Force Assistance missions. MCASTC 
provides Security Assistance detachments and tailored mobile training 
teams (MTTs) that conduct maritime security force assistance to bolster 
State Department led Maritime Security Sector Reform efforts.
    Navy technology investments in Unmanned Aerial Vehicles (UAVs) 
(e.g. Fire Scout, STUAS, Scan Eagle), new UAV payloads, and information 
sharing and fusion techniques are enabling information dominance among 
fleet units, SOF, and coalition partners who respond to instability. 
Incorporating advanced technologies for mine hunting and neutralization 
on LCS will improve the Navy's ability to conduct Stability Operations 
in contested waters.
    Additionally, the Navy is pursuing a number of initiatives to 
codify its doctrine and operating concepts for Stability Operations and 
IW-related activities. A forthcoming tri-service Navy-Marine Corps-
Coast Guard doctrine for conducting maritime stability operations will 
acknowledge the importance of this mission area and improve planning 
and coordination of Stability Operations with interagency, NGO, and 
coalition partners. The Naval War College recently conducted a 
comprehensive maritime stability operations game involving U.S. 
government, NGO, industry, and coalition naval partners. The Center on 
Irregular Warfare and Armed Groups (CIWAG), also at the Naval War 
College, conducts annual symposia related to irregular warfare and 
stability issues. The Navy maintains liaisons at the Department of 
State and USAID to provide increased awareness and information sharing, 
which is key to future operations. The Naval Post Graduate School 
offers two masters programs related to IW (Special Ops/IW and Security 
Affairs and Reconstruction). Last summer, Johns Hopkins University/
Applied Physics Lab (JHU/APL) conducted a collaborative study on Navy 
Roles and Capabilities in CIC. It analyzed capability gaps for 
stability operations, steady state security force assistance, and 
maritime security operations. The objective of each of these 
initiatives is to increase understanding of roles naval forces play in 
Stability Operations and to improve the Navy's integration with the 
efforts of other agencies, organizations and foreign partners.
    Mr. Miller. Following up on DOD Directive 3000.05, issued in 2005, 
DOD Instruction 3000.05, issued in 2009, states that it is DOD policy 
that Stability Operations ``shall be given priority comparable to 
combat operations and be explicitly addressed and integrated across all 
DOD activities including doctrine, organizations, training, education, 
exercises, materiel, leadership, personnel, facilities, and planning.'' 
Despite this clear directive, and despite being fully-engaged in 
counterinsurgency campaigns for the past 10 years, our combat units 
devote only a fraction of their pre-deployment training to attaining 
proficiency in stability operations. What is being done to address this 
disparity?
    General O'Donohue. Pre-deployment training is based on each unit's 
approved mission essential task list (METL) and the pre-deployment 
training requirements established by the Marine forces component 
commander. Units preparing for deployment receive extensive pre-
deployment training in irregular warfare, including the tasks and 
activities required in stability operations. This training uses a 
building block approach, beginning with individual skills such as 
cultural and language training, and progresses through increasing 
levels of collective training. Pre-deployment training culminates with 
a comprehensive 25-day exercise known as Enhanced Mojave Viper (EMV). 
The final phase of EMV is a mission rehearsal exercise that provides a 
rigorous assessment of a unit's ability to execute operations using 
culturally-relevant role players and realistic irregular warfare 
scenarios.
    The Marine Corps also recognizes that interoperability with our 
joint, interagency and multinational partners is essential to success 
in the complex operating environments that characterize irregular 
warfare and stability operations. Our service-level pre-deployment 
training incorporates joint, interagency and multinational partners 
into a dynamic, capabilities-based training program in order to prepare 
our deploying forces for the full spectrum of military operations.
    With regard to joint training, the Joint National Training 
Capability (JNTC) provides the primary means to incorporate joint 
context into USMC training events. The Marine Corps currently has five 
accredited JNTC programs. In interagency training, our ongoing 
interagency (IA) initiatives are designed to:

    <bullet>  Expand and improve IA integration for both theater-
specific and non-theater specific training.
    <bullet>  Improve coordination and increase IA participation in 
USMC training by aligning service requirements to the IA's internal 
tasking process.
    <bullet>  Enhances our awareness of our IA partners' roles and 
capabilities.
    <bullet>  Increase our forces' participation in IA-sponsored 
training, such as the Department of Agriculture's Agricultural 
Development for Afghanistan Pre-deployment Training (ADAPT) and 
Afghanistan Field Orientation Training offered at the Foreign Service 
Institute.

    In multinational training, our primary goal is to prepare our 
forces and their coalition partners to operate together in Afghanistan. 
Our training focuses on operational level interaction through 
reciprocal participation in mission rehearsal exercises with partner 
nations. We are also pursing improved interoperability at the 
institutional level through staff and instructor exchange programs. 
Looking ahead, our Training and Education Command is coordinating with 
selected coalition partners to explore future training opportunities in 
a post-OEF environment.
    In summary, our pre-deployment training strives to prepare our 
forces for potential missions in the most effective and efficient 
manner possible. Our unqualified operational success, spanning more 
than 10 years of continuous operations, validates our approach.
    Mr. Miller. Following up on DOD Directive 3000.05, issued in 2005, 
DOD Instruction 3000.05, issued in 2009, states that it is DOD policy 
that Stability Operations ``shall be given priority comparable to 
combat operations and be explicitly addressed and integrated across all 
DOD activities including doctrine, organizations, training, education, 
exercises, materiel, leadership, personnel, facilities, and planning.'' 
Despite this clear directive, and despite being fully-engaged in 
counterinsurgency campaigns for the past 10 years, our combat units 
devote only a fraction of their pre-deployment training to attaining 
proficiency in stability operations. What is being done to address this 
disparity?
    General Martinez. As directed by DoDD 3000.05, Stability 
Operations, the Air Force implemented Air Force Policy Directive (AFPD) 
10-43, Stability Operations, 16 May 2011, detailing Air Force support 
of stability operations. Stability Operations is a core US military 
mission and the Air Force provides tailored training to all deploying 
personnel based on mission requirements. Training for stability 
operations is incorporated into pre-deployment training for personnel 
deploying to Afghanistan and all units have been directed to comply 
with the Under Secretary of Defense for Personnel and Readiness' 
Directive Type Memorandum (DTM) 11-002--Counterinsurgency (COIN) 
Training and Reporting Guidance for Preparing U.S. Forces to Succeed in 
Afghanistan and Pakistan.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING

    Mr. Schilling. How can the organic base help address the new 
challenges that the military faces with irregular warfare? How has it 
done to this date and how can it improve?
    General Bayer. The Army's organic industrial base (OIB), consisting 
of manufacturing arsenals, ammunition plants, and maintenance depots, 
has the capability to respond quickly to support conventional and 
irregular warfare requirements. As an example of responding to 
irregular warfare, the Rock Island Arsenal counteracted the enemy's use 
of improvised explosive devices during Operations Enduring Freedom and 
Iraqi Freedom by manufacturing specialized armor kits for tactical 
wheeled vehicles to protect the Warfighter from roadside bombs. Current 
OIB facility capabilities can also be expanded through the 
establishment of public-private partnerships with private industry 
partners to support emerging requirements to counteract irregular 
warfare tactics. The Army continually improves this process through 
enhanced communication with its private industry partners and through 
its assessment of current and anticipated irregular warfare techniques.
    Mr. Schilling. We have continued to hear that the military will 
need to reorganize how it works in order to deal with the upcoming 
budget cuts. How will this reorganization affect the way in which you 
can address irregular warfare in the future? Are there ways that 
Congress can help, outside of funding, to ensure that any changes to 
the DOD will facilitate your ability to address irregular warfare now 
and in the future?
    General Bayer. The biggest institutional challenge, given fiscal 
constraints, will be ensuring the right mix of capability to support 
our mission and requirements. The Army must maintain the full 
capability to conduct Unified Land Operations to seize, retain and 
exploit the initiative through the decisive action of offensive, 
defense or stability operations. Our nation demands we be prepared to 
operate successfully across this expansive mission set.
    Future battlefields will be populated with hybrid threats: 
combinations of regular, irregular, terrorist, and criminal groups. The 
Army must retain the flexibility to operate both in missions requiring 
maneuver over extended distances, and in missions requiring the 
establishment of security over wide areas; whatever the threat. As 
pressures for cuts in defense spending and force structures increase, 
the Army must assess which capabilities to emphasize, how many of each, 
and at what level; finding the right mix will be a challenge.
    As we have learned from the last ten years, the military cannot 
succeed in today's operating environment alone. Full integration of 
U.S. Government capability in planning, training, and conduct of 
irregular operations is critical to success. In future operating 
environments it will remain critical that the Joint and Interagency 
community develop a policy framework that enables a whole-of-government 
approach for operations that support irregular warfare. Likewise, the 
Army will continue to improve its ability to team with partners in 
support of coalition operations in an irregular warfare context.
    Mr. Schilling. How can the organic base help address the new 
challenges that the military faces with irregular warfare? How has it 
done to this date and how can it improve?
    Admiral Harris. Navy forces are inherently agile, and their multi-
mission capabilities enable them to operate across the full range of 
military operations. The same type of Sailors that supported Operation 
Tomodachi also supported Operation Odyssey Dawn. The same training to 
confront irregular challenges provided to Sailors deploying from San 
Diego is given in Norfolk as well. With growing emphasis on fleet-
special operations forces (SOF) interoperability, the Navy's role in 
countering terrorism, piracy, and other forms of instability by, with, 
and through a variety of partners is rapidly expanding.
    The Navy is also working to provide better equipment and tactics to 
the fleet. Among these improvements are expanded use of UAVs and new 
payloads to expand collection opportunities, new protocols for fusing 
intelligence at local levels, and information sharing protocols that 
will leverage the contributions of coalition partners. Expanded 
research and development of mine hunting and neutralization 
technologies will enable fleet forces to operate more effectively in 
littoral areas where irregular challenges must be addressed. The Navy's 
emphasis on building partner security capacity is reflected in the 
establishment of the Navy Expeditionary Combat Command and its Maritime 
Civil Affairs and Security Training Command (MCASTC). MCASTC provides 
Security Assistance Detachments; mobile training teams (MTTs) that 
conduct security force assistance with the navies of developing 
countries and support the Navy's partnership programs in the Pacific, 
Africa, and Latin America.
    More Navy personnel are receiving Language, Regional Expertise, and 
Culture (LREC) training and its Foreign Area Officer (FAO) program is 
expanding to meet new requirements. Notwithstanding many initiatives to 
enhance Navy irregular warfare capabilities, improving the Navy's 
capacity to address dynamic security challenges through prevention and 
flexible response is wholly dependent on the size of its fleet.
    Mr. Schilling. We have continued to hear that the military will 
need to reorganize how it works in order to deal with the upcoming 
budget cuts. How will this reorganization affect the way in which you 
can address irregular warfare in the future? Are there ways that 
Congress can help, outside of funding, to ensure that any changes to 
the DOD will facilitate your ability to address irregular warfare now 
and in the future?
    Admiral Harris. As ADM Greenert stated during his House Armed 
Service Committee hearing on the Future of the Military Services and 
the Consequences of Defense Sequestration on 2 November 2011, ``We do 
our best operating forward at what I call the strategic maritime 
crossroads. [ . . . ] We have to be prepared. We have to respond when 
tasked, and our challenge is to posture for that possibility.''
    The strength of Navy forces resides in its multi-mission nature and 
the ability to operate across the full spectrum of naval operations in 
peacetime, combat, contingency, and pre-crisis conditions. The Navy's 
ability to respond to security challenges, including those involving 
irregular threats, depends on its ability to sustain forward presence 
in regions key to U.S. national interests. The size of the fleet 
directly determines the level of that presence. A reduction in the 
Navy's operating and procurement budgets may also have an adverse 
affect on our mission priorities, requiring the Navy to ``buy risk'' if 
forced to determine what it can accomplish and what it can't with a 
reduced fleet (e.g., the need to choose between competing destabilizing 
threats due to reduced forward presence). If budget cuts reduce the 
Navy's capacity to maintain its current level of forward presence, 
careful prioritization will be required along with possible greater 
emphasis on building partner capacity to offset reduced presence. Aside 
from contributing to stable maritime governance in regions of strategic 
importance, Navy efforts to build partner capacity can also help 
maintain the Navy's core mission skills and enable the U.S. to 
peacefully compete for influence with rising regional powers.
    If a smaller Navy becomes a reality with a shift in emphasis to 
bolstering maritime partner capacity, the Congress could adjust 
authorities to facilitate broader partner training roles for the Navy. 
However, operating under new authorities without additional funding 
will undoubtedly have a negative impact on the Navy's readiness to 
accomplish its core missions (e.g. 10 USC 168 grants authorities for 
military-to-military contacts and comparable activities, but has yet to 
be accompanied by specific appropriations, resulting in a lack of 
ability to execute the functions enumerated in the statute under its 
authority).
    Mr. Schilling. How can the organic base help address the new 
challenges that the military faces with irregular warfare? How has it 
done to this date and how can it improve?
    General O'Donohue. The Commandant of the Marine Corps' Planning 
Guidance states that the demand for military forces with irregular 
warfare (IW) capabilities will expand over the next two decades. With 
that in mind, the Marine Corps has taken aggressive steps to posture 
itself to meet the full spectrum of IW challenges. One of the key areas 
in which the Marine Corps has bolstered its ability to support IW 
operations is in the organic base. The Marine Corps maintains two 
organic depot-maintenance sites--one in Albany, GA, and one in Barstow, 
CA. Both sites are structured and designed to respond rapidly to the 
ever-changing requirements of the operating forces. In addition to the 
two U.S.-based sites, the Marine Corps has also established forward-
deployed logistics nodes in the Central Command Theater to serve as 
hubs for a wide range of logistics functions. These logistics hubs 
routinely support Marine Expeditionary Units (MEUs) and Marine Corps 
Special Operations Command (MARSOC) forces in the Central Command 
Theater by providing a robust forward-deployed maintenance capability 
and ensuring that worn equipment expeditiously enters the maintenance 
cycle in CONUS when required.
    The Marine Corps' organic base also supports the Urgent Universal 
Needs (UNS) process, acting as the choice source of repair to upgrade 
and maintain a variety of equipment sets, including the Mine Resistant 
Ambush Protected (MRAP) family of vehicles, the Ground Based 
Operational Surveillance System (G-BOSS), mobile trauma bays and gunner 
shields for special-operations forces, to name a few. All of these 
equipment sets directly support IW missions. Additionally, Marine Corps 
Logistics Command's Innovation Lab has the capability to reverse-
engineer, design and field various parts, components and platforms to 
meet the Marine Corps' diverse range of IW requirements.
    The Marine Corps' recruit training depots at Parris Island and San 
Diego and Officer Candidates School at Quantico provide entry level 
training that is essential to the process of transforming young men and 
women from civilians into Marines. This training lays the foundation 
for developing the widely-varied skills needed to succeed in irregular 
warfare. Central to the transformation process is a rigorous values-
based training program that strives to inculcate our core values in all 
Marines and provides an essential foundation for developing the ethical 
decision-making skills needed in the complex operational environments 
that characterize irregular warfare.
    At the Marine Corps Air Ground Combat Center, 29 Palms, California, 
our MAGTF Training Command provides a rigorous, pre-deployment training 
program that serves as ``graduate'' level training for our units 
preparing to deploy to OEF. This training covers the entire irregular 
warfare spectrum from live fire, combined arms training based on 
kinetic counterinsurgency scenarios to non-live fire force-on-force 
training events that prepare our units for the subtler forms of 
influence used in stability operations, such as key leader engagements 
and training indigenous security forces.
    To date, the Marine Corps has done an excellent job addressing 
emerging IW challenges. The Marine Corps' middleweight force structure 
makes it the ideal force to support IW engagements, as the Corps is 
light enough to get there quickly, heavy enough to carry the day upon 
arrival, and fully capable of operating independent of local 
infrastructure. The flexibility, responsiveness and robust capabilities 
of the organic base will continue to be key enablers of the Marine 
Corps' ability to counter IW threats in the future. Improvements and 
advancements in the areas of technology, specifically with regard to 
mission rehearsal systems and identity dominance will be necessary in 
order to keep the military ahead of the enemy. The organic base must 
stay healthy and resourced to maximize effectiveness and enable the 
best support to IW challenges of the 21st century.
    Mr. Schilling. We have continued to hear that the military will 
need to reorganize how it works in order to deal with the upcoming 
budget cuts. How will this reorganization affect the way in which you 
can address irregular warfare in the future? Are there ways that 
Congress can help, outside of funding, to ensure that any changes to 
the DOD will facilitate your ability to address irregular warfare now 
and in the future?
    General O'Donohue. The Marine Corps is the nation's expeditionary 
force in readiness. As such it is prepared for all manner of crises and 
contingencies. It recognizes the complex, highly adaptive threats that 
we face. In the future, as in the past, multiple regional powers and a 
host of lethal groups will exploit numerous seeds of instability, 
proliferating increasingly lethal technology and extremist ideology 
while leveraging the advantages of networks hidden amongst the 
population. Marines are prepared to meet that challenge with our Navy, 
Special Operations, Army, Air Force and interagency partners.
    As we look to the future, the post-Operation Enduring Freedom 
Marine Corps is fundamentally different from the current and pre-9/11 
force. It draws on a rich history of innovations in irregular warfare 
but is recast as a scalable crisis response force ready to counter 
complex irregular, conventional and hybrid threats--and the gray areas 
in between. We have substantially invested in relevant organizations 
such as Marine Special Operations, intelligence, surveillance, 
reconnaissance, communications, partnering, civil affairs, electronic 
warfare, cyber, regionally oriented command and control, and 
information operations. Tasked organized with our highly trained line 
units, these enablers provide versatile, scalable capability for a 
broad range of missions to include deterrence, counter-terrorism, 
counter-proliferation, partnering, reinforcement to our allies, 
humanitarian assistance, and assured access for the joint force under 
any condition our national interests require.
    In his 2010 planning guidance, the Commandant, General James Amos, 
provided specific guidance for strengthening and consolidating 
irregular warfare organizations. We have increased the size of the 
Center for Irregular Warfare Integration Division and tasked them to 
deliberately assess our capabilities for future irregular warfare. This 
is intended to integrate joint and interagency practices with our 
current guidance and insights in order to ensure a holistic approach to 
identifying and implementing necessary changes.
    We consolidated two organizations into the new Marine Corps 
Security Cooperation Group (MCSCG), which provides pre-deployment 
training and other support to operating forces that conduct training 
and advisory missions in each of the geographic combatant command areas 
of responsibility. The Marine Corps is further expanding the Foreign 
Area Officer/Regional Area Officer (FAO/RAO) program to the enlisted 
ranks in the form of Foreign Area Staff Non Commissioned Officers/
Regional Affairs Non Commissioned Officers (FAS/RAS).
    The Marine Corps has doubled the size of its Civil Affairs Groups, 
growing from two to four and increasing them in size. It has led DOD in 
the creation of an automated Irregular Warfare Manpower Skills Tracking 
system that enables commanders to easily identify Marines with 
documented civilian education, military skills and experience that 
could be useful in the conduct of IW.
    Language, regional, and culture training and education efforts were 
developed in response to validated operational requirements. The 
overall regionalization and specialization effort extends across 
DOTMLPF. The Center for Advanced Operational Culture and Learning 
(CAOCL) provides standards-based training throughout the operating 
forces and has implemented the Regional, Culture, and Language 
Familiarization Program (RCLFP) as a mandatory component of both 
resident and distance education throughout a Marine's career. These 
programs are assisted by the creation of Language Learning Resource 
Centers at major bases.
    Effectively countering irregular threats relies primarily on non-
materiel aspects of preparing Marines for Irregular Warfare (IW) 
activities. Acknowledging upcoming reorganization, addressing irregular 
warfare operations capabilities does not rely solely on a specific 
organization or organizations. Addressing IW relies on the successful 
integration of IW-related capabilities across the doctrine, 
organization, training, materiel, leadership, personnel and facilities 
spectrum. The Marine Corps will maintain its focus on maximizing 
efficiency in these capabilities: institutionalization of IW training 
and education; train, advise, and assist foreign security forces; 
language and culture expertise; attacking the network; population based 
intelligence; interagency coordination and collaboration; non-lethal 
weapons engagement; identity dominance; and information operations.
    The Marine Corps will continue to follow the guidance and orders of 
the President and the Office of the Secretary of Defense when training 
and equipping Marines to succeed in irregular warfare operations. 
Opportunities to further increase IW capability and readiness could 
include:

    <bullet>  Adapt collaborative frameworks to plan, act, assess, and 
adapt: Alignment of various interagency planning processes with Defense 
processes could avoid imbalances in assessment, planning, and 
execution.
    <bullet>  Support the development of National Security/Interagency 
professionals: Career paths which give career professionals incentives 
to pursue diverse interagency experience, education, and training. This 
could yield structures and personnel which are better able to 
coordinate and collaborate as national security partners.

    Mr. Schilling. How can the organic base help address the new 
challenges that the military faces with irregular warfare? How has it 
done to this date and how can it improve?
    General Martinez. The ``organic base'' is not associated with any 
Air Force, force structure or Title 10 function. The term often 
referred to as the ``organic base'' is used to describe an assortment 
of arsenals, maintenance depots and ammunition factories which are 
operated, funded and modernized by the US Army.
    Mr. Schilling. We have continued to hear that the military will 
need to reorganize how it works in order to deal with the upcoming 
budget cuts. How will this reorganization affect the way in which you 
can address irregular warfare in the future? Are there ways that 
Congress can help, outside of funding, to ensure that any changes to 
the DOD will facilitate your ability to address irregular warfare now 
and in the future?
    General Martinez. Within our current organizational structure, the 
Air Force is prepared to conduct direct action irregular warfare 
effectively and efficiently. Indirect IW capabilities supporting 
building partner capacity are effective but less well developed. The 
Air Force has added an additional mission, building security capacity 
of partner nations, to contingency response wings and groups in Air 
Mobility Command, Pacific Air Forces, and U.S. Air Forces Europe. Units 
are aligned with specific regions of the world to support these 
operations. Additionally, two mobility support advisory squadrons 
recently established initial operational capability at Joint Base 
McGuire-Dix-Lakehurst, New Jersey and Travis Air Force Base, 
California, and form the core of our general purpose force security 
force assistance capability.
    Between our traditional aviation and irregular warfare 
capabilities, the Air Force can provide joint force commanders 
tremendous capabilities for future irregular warfare operations. 
Upcoming budget cuts, however, will impact how many of those operations 
the Air Force may be able to respond to at any one time.
    Building partnership capacity, a resource-intensive mission, 
requires adequate authorities and predictable funding. Legal 
authorities and funding for partner nations are complex, confusing, and 
restrictive--a vestige of the Cold War. For example, Title 10 U.S.C. 
appropriations may not be used for the explicit purpose of building 
capacity in the DOD to train foreign partners. These restrictions 
inhibit Security Force Assistance air advising and aviation enterprise 
development. Further, single-year funding restrictions cause difficulty 
in developing long-range plans for countries of interest. However, 
USD(P) along with DoS have included a FY12 legislative proposal to 
establish the Global Contingency Security Fund that should streamline 
authorities and funding.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
